<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS AND RELATED AGENCIES APPROPRIATIONS FOR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2013

                              ----------                              

                                           Thursday, March 1, 2012.

            BUDGET OVERVIEW HEARING ON MILITARY CONSTRUCTION

                               WITNESSES

ROBERT F. HALE, UNDER SECRETARY OF DEFENSE (COMPTROLLER)
GENERAL RAYMOND T. ODIERNO, CHIEF OF STAFF OF THE ARMY
ADMIRAL JONATHAN GREENERT, CHIEF OF NAVAL OPERATIONS
GENERAL JAMES F. AMOS, COMMANDANT OF THE MARINE CORPS
GENERAL NORTON A. SCHWARTZ, CHIEF OF STAFF OF THE AIR FORCE
GENERAL JOSEPH F. DUNFORD, JR., ASSISTANT COMMANDANT OF THE MARINE 
    CORPS ON BEHALF OF GENERAL JAMES F. AMOS, COMMANDANT OF THE MARINE 
    CORPS

                      Chairman's Opening Statement

    Mr. Culberson [presiding]. The House Appropriations 
Subcommittee on Military Construction, the V.A. will come to 
order.
    It is a real privilege to be here this morning with our 
Service Chiefs.
    We are honored to have you here, gentlemen. Thank you for 
your service to the nation.
    We are of course here this morning for an overview hearing 
on the Department of Defense fiscal year 2013 budget request 
for military construction--family housing--and we look forward 
to your testimony. I know there is a lot of questions and I 
will welcome an opportunity for my friend, Mr. Bishop to make 
any brief statement he would like to, and then we will move 
right in to the testimony, because I know we all have many 
questions for you.
    Thank you.

                   Ranking Member's Opening Statement

    Mr. Bishop. Thank you very much, Mr. Chairman.
    I, too, would like to welcome this distinguished panel. I 
look forward to discussing the fiscal year 2013 MILCON budget 
in detail this morning.
    First I would like thank all of you for your continued 
service to our nation. You are truly deserving of our affection 
and our support.
    As you all know, Congress passed a bipartisan basis the 
Budget Control Act which reduced the defense spending by nearly 
$0.5 trillion dollars over 10 years. The Department responded 
with a new strategy and a new program to meet our nation's 
security challenges and to preserve our military capabilities.
    On our first glance, the budget numbers are low and I have 
some concerns about the numbers.
    Mr. Chairman, another item that concerns me is BRAC. As you 
know, the Administration has called for two more BRAC rounds. 
And in my view, before we consider another round of BRAC, they 
probably should take a hard look at further reductions and 
bases that can be made overseas.
    For example, in Europe while the Department has announced 
the removal of two of the four combat brigades, even after the 
brigades are withdrawn, there will still be over 70,000 U.S. 
military personnel deployed in Europe. I think that finding 
further reductions and consolidations in our overseas force 
should probably be our first priority before another BRAC round 
on top of the round we just completed in September.
    Don't take this as me saying I don't support overseas 
MILCON because I do support the strategic goals of a U.S. 
regional military posture that will be able to quickly address 
threats around the world. For example, I support the 
realignment of the Marines in Okinawa but I believe this 
realignment should avoid excessive costs that are associated 
with a large and elaborate new base.
    The announcement last month that the United States and 
Japan are reconsidering elements of the plan is welcome news 
but I believe that we should still proceed with caution to make 
sure that the move is done in an efficient manner and that it 
doesn't compromise readiness.
    There are some other challenges of course. There is a 
strong bipartisan determination on the subcommittee, though. We 
have to do all that we can to make sure that our military has 
everything that it needs.
    Mr. Chairman, thank you for indulging my longer than usual 
statement, but I know that you share my concern when it comes 
to defense of our nation, and I want to make sure we get it 
right, and I look forward to the witnesses explanation of the 
process that each service went through when developing the 
budgets.
    And I yield back.
    Mr. Culberson. Thank you, very much.
    Georgia and Texas are definitely on the same page there. 
And I want to make sure to--if I could, welcome the gentleman 
from Florida, our distinguished Chairman; the former Chairman 
of the full committee and Chairman of the Defense Subcommittee, 
Bill Young--for any opening statement you would like to make.
    Mr. Chairman.
    Mr. Young. Mr. Chairman, thank you very much. The only 
opening statement I would make is that it is great to have 
these great military leaders here and we know that actually our 
country is in good shape with the leadership that they have 
already expressed over the years.
    We are concerned about the drawdown in the forces. We are 
concerned about, frankly, the budget request. On defense, we 
are not used to having to cut so much. And if you remember last 
year, for fiscal year 2011 and fiscal year 2012, which we did 
both last year, we actually ended up with about a $39 billion 
reduction below the president's budget. We did our very best to 
do that without affecting readiness, and I think we did and 
without affecting the soldiers.
    So anyway we are anxious to hear what you have to say and I 
know you are going to be comparing the force drawdown and the 
requirement for military construction to accommodate those 
changes.
    So we are looking forward to your testimony.
    Thank you.
    Mr. Culberson. Mr. Chairman, it is a privilege to have each 
and every one of you here with us today. I share the concerns 
that have been expressed by the other members and I will delve 
into that when I get into my questions. But of course we 
welcome your opening statements.
    We want to be sure to recognize our witnesses and introduce 
them.
    The Honorable Robert Hale is Under Secretary for Defense 
Services Controller for the Pentagon and chief financial 
officer of the Department of Defense.
    We are delighted to have you today here with us, sir.
    General Raymond Odierno, who is Chief of Staff for the 
United States Army--what a privilege to have you here, sir; and 
thank you for your service.
    We are also privileged to have with us Admiral Jonathan 
Greenert, Chief of Naval Operations.
    Glad to have you here, sir, and thank you also for your 
service.
    General Joseph F. Dunford is Assistant Commandant of the 
Marine Corps--here, on behalf of General Amos--we want him to 
know our prayers are with him and his family, and hope he 
recovers quickly from his surgery. And we thank you for being 
here today, sir, and for your service.
    I also recognize General Norton Schwartz, Chief of Staff, 
United States Air Force.
    Thank you, sir, for your service and we look forward to 
your testimony.
    We have, if we could--would invite you to summarize your 
testimony and we may have votes called in a few minutes and we 
will go as long as we can then take a brief break to go take 
care of the votes and come right back. So we are just delighted 
to have you here and I think the protocol is I will ask Mr. 
Hale to go first.
    Thank you very much sir.

                           Opening Statement

    Mr. Hale. Now is this one? Now we are on.
    Good; all right.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to discuss our military construction and family 
housing budget request and let me thank all of you for your 
continued support of our men and women in uniform and the 
civilians who support them.
    I submitted a statement for the record. I will summarize it 
briefly. The Budget Control Act reduced defense funding for 
FY's 2013 through 2017 by a total of $259 billion compared to 
last year's plan. After these changes we are requesting $525.4 
billion in discretionary budget authority for fiscal 2013 to 
adjust for inflation; that is down 2.5 percent; the third 
consecutive year of real decline.
    As we accommodated these reductions we were guided by a new 
defense strategy and three related principles. I will briefly 
discuss the strategy and principles of focus on where they most 
affected military construction.
    We will accommodate reduced defense spending in part 
through better discipline or more disciplined use of our 
resources, in order to stretch our defense dollars.
    Among the changes is a substantial rephasing of military 
construction; pushing of projects off until we know the nature 
and location of force cuts; we will also seek administrative 
savings in other ways to reduce base support costs.
    Our new defense strategy provides additional opportunities 
for savings. We are planning for a smaller, leaner force with 
ground forces no longer sized for prolonged stability 
operations such as we conducted in Iraq. We will reduce the end 
strength by a little more than 100,000 over the next 5 years 
for active duty mostly in our ground forces and that lead to a 
number of reductions in force structure.
    Another strategic goal involves rebalancing our forces 
toward the Asia Pacific and Middle East regions. This will 
involve increasing our presence in areas including Singapore 
and Australia, moves that will eventually have effects on 
military construction.
    We are also planning investments in high priority 
initiatives and some judicious cutbacks in weapons systems, not 
heavily military construction related so I won't discuss them 
in detail. We will continue to support the all-volunteer force, 
we have proposed to slow the growth in selected components of 
military pay and benefits. So what does all this mean for our 
request that is before this subcommittee? For 2013, we are 
requesting $11.2 billion for military construction and family 
housing.
    That includes $9.1 billion for construction, and a half 
billion to pay continued BRAC expenses, which is mainly for 
environmental cleanup and the rest of the request is for family 
housing. I would like to draw your attention to some selected 
issues that I think will be of some interest to the 
subcommittee. Between 2012 and 2013, as I said, we will re-
phase military construction, pushing off projects until we know 
more about the nature and location of force structure cuts.
    As a result, military construction is down sharply, between 
17 and 63 percent depending on the department between fiscal 
2012 and 2013. The exception to these reductions is the defense 
wide military construction accounts.
    That amount grows by about 6 percent between 2012 and 2013. 
Among other things, this reflects support for high priority 
improvements in hospitals and DOD dependent schools. We also 
request new BRAC authority for 2103 and 2015. We want that in 
tandem with our efforts to reduce our overseas infrastructure, 
which are ongoing and we will be glad to talk with you about 
them.
    Given the nature of planned force cuts, we know we need to 
consolidate our domestic infrastructure. We have stood up an 
internal working group to plan for BRAC 2013.
    And while we recognize the political difficulty in 
providing new BRAC authority, we ask your support. We are also 
working to formulate a new plan to relocate Marines from 
Okinawa to Guam in a manner consistent with our larger Asia-
Pacific strategy. The new plan will maintain support for the 
Futenma Relocation Facility, but it will delink that facility 
from the moves of the Marines from Okinawa.
    We plan now to move fewer than 5,000 Marines to Guam. We 
are currently discussing the details with the government of 
Japan and will continue to consult with Congress as we work 
toward a new plan. Other initiatives in the Asia Pacific area 
include forward deployment of Littoral Combat Ships in 
Singapore and the rotational presence of U.S. Marines and Air 
Force personnel in Australia. We are still working details for 
Singapore, but placeholder funds for that deployment are 
included in the Future Years Defense Program (FYDP).
    No Military Construction (MILCON) funding is currently 
planned for the U.S. rotational presence in Australia, but we 
will continue environmental studies and facility assessments 
and at some point MILCON may be required.
    Lastly, we recently announced reductions in U.S. troops 
stationed in Europe and Army headquarters, two heavy brigades, 
an attack air squadron, an air control squadron and a number of 
enablers. Despite these changes, the United States will 
maintain a strong presence in Europe with greater emphasis on 
joint exercises and training.
    But the changes will lead to reductions in our overseas 
infrastructure and, as I say, we will do them in tandem with 
the domestic changes.
    In conclusion, Mr. Chairman, we think this overall budget, 
including our military construction and family housing request 
is prudent; it balances the needs of our Armed Forces with the 
nation's economic situation and I request your support for our 
proposals. That concludes my statement. After the chiefs have 
completed theirs, we welcome your questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5948A.001
    
    [GRAPHIC] [TIFF OMITTED] T5948A.002
    
    [GRAPHIC] [TIFF OMITTED] T5948A.003
    
    [GRAPHIC] [TIFF OMITTED] T5948A.004
    
    [GRAPHIC] [TIFF OMITTED] T5948A.005
    
    [GRAPHIC] [TIFF OMITTED] T5948A.006
    
    Mr. Culberson. Thank you very much Mr. Hale.
    And I am privileged to recognize General Odierno.
    Thank you, Sir.

                           Opening Statement

    General Odierno. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman and Ranking Member Bishop, and the 
rest of the members of the committee. It is an honor to be here 
in front of you today.
    The Army today continues to be a truly globally engaged 
army with currently 95,000 soldiers deployed and another 96,000 
soldiers forward stationed around the world as we sit here 
today.
    By the end of fiscal year 2017, as you know, we will have 
decreased our end strength in the active component from 570,000 
to 490,000. We will decrease the National Guard from 358,000 to 
353,000; and our Army Reserve from 206,000 to 205,000.
    It is imperative for us that we sustain a gradual ramp as 
we go through this in order to take care of our soldiers, to 
continue to provide forces necessary to finish the mission in 
Afghanistan and facilitate reversibility based on the great 
uncertainty that we face around the world today. End strength 
above 490,000 is strictly funded through OCO, and must be 
sustained to help mitigate the risks, as I just outlined, as we 
continue our operations in Afghanistan.

                     MILITARY CONSTRUCTION OVERVIEW

    In fiscal year 2013, military construction is a 32 percent 
reduction from fiscal year 2012 budget request, and includes 
103 projects worth about $3.6 billion.
    Comparatively, we have reduced the overseas military 
construction by 56 percent from the fiscal year 2012 budget 
request. These reductions, both domestically and overseas, have 
caused financially prudent project deferrals.
    But despite these reductions, we continue to put a heavy 
emphasis on funding critical infrastructure, sustainment, 
restoration and modernization of our failing facilities. And we 
have budgeted 90 percent of the requirement over this budget.
    We are currently conducting our Total Army Analysis, which 
enables us to get into the specifics of how we will reorganize 
our army and balance it between combat, combat support, combat 
service support, as well as balancing structure between the 
active component and the reserve component.
    As we did budget, we did not assume a future BRAC with this 
budget submission. However, we fully support the need for a 
future BRAC. Regarding BRAC 2005, 101 out of the 102 
obligations were certified and we will continue to monitor all 
residuals to ensure we attain 100 percent closure. The BRAC 
gave us a one-time savings of $4.8 billion and a net annual 
savings of $1 billion.

    DOMESTIC MILITARY CONSTRUCTION (WEST POINT BARRACKS & ARLINGTON)

    Our domestic military construction funding request includes 
those with the most critical need. The request contains 47 
projects in 16 states. Our largest project is $192 million 
construction of a new cadet barracks at West Point. The last 
construction of barracks at West Point was in 1965.
    The clear need for this is based on the fact that we now 
have 18 percent of the Corps cadets who are female and we have 
not figured that as we built our barracks. We need to expand 
our barracks in order to have the appropriate capability to 
support the females that are now part of the Corps of Cadets.
    Additionally, the budget includes funding for Arlington 
National Cemetery expansion. This includes $84 million for the 
millennium project, capital improvements and expansion and $19 
million for the planning and design for additional expansion of 
Arlington National Cemetery.
    There will be a gradual increase in overall percentage of 
military construction funds for the National Guard and Army 
Reserves. Our current request will fund 37 projects in 26 
states.

            OVERSEAS MILITARY CONSTRUCTION (EUROPE & KOREA)

    In Europe, we will reduce the amount of forces, as was 
already pointed out, and implement rotational forces for 
training combined readiness exercises with our allies.
    I believe this will serve as a future model, using a 
tailorable approach with regionally aligned forces and 
prepositioned stocks in order to meet our requirements with our 
allies and partners around the world. Since 2006 in Europe, we 
have closed approximately 100 sites with real property value of 
more than $9 billion.
    From now through 2015, the Army identified another 23 sites 
for disposal and turnover. Further reductions and 
consolidations will come with the inactivation of the two 
brigade combat teams and other enablers from Europe in fiscal 
year 2013 and 2014.
    There are significant savings and cost avoidance associated 
with divesting these facilities. Consolidation efforts alone at 
Weisbaden will yield $112 million in annual savings.

                           LANDSTUHL HOSPITAL

    Though OSD is the final approval authority, Secretary 
McHugh and I strongly support the funding for replacement of 
the Landstuhl Hospital.
    This is because it supports critical casualty care for 
injured personnel throughout three combatant commands in the 
Middle East, Africa and Europe, and has served so for many, 
many years. And it is important that we sustain this incredibly 
important facility.

                                FACILITY

    In the Asia Pacific, the Korean government will be funding 
$10.8 billion for the Yongsan relocation plan and land-
partnership plan for our consolidation efforts. In comparison, 
this budget contains only one battalion headquarters project 
for Korea at the cost of $45 million. To further save, we must 
reduce the costs of running our installations. Since 2003, we 
have reduced our installation energy consumption by 14 percent 
despite increasing population by over 20 percent. We will 
continue to evaluate all energy investment opportunities to 
include all net zero initiatives and renewable power in a 
vetted cost-benefit analysis to determine long term benefits 
and cost savings. For example, we have and continue to expand 
metering programs on all of our installations.
    I would like to leave you with one last thought. 
Sequestration is not in the best interest of our national 
security. The impact to the Army could be an additional 100,000 
in cuts to our end strength on top of the already 80,000 that 
we are taking now. This would result in severe reductions in 
the National Guard, the Army Reserves as well as additional 
reductions in the active component and will significantly 
decrease what the Army can do for the joint force.
    Mr. Chairman, members of the committee, thank you so much 
for allowing us to testify today and I look forward to your 
questions.
    Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5948A.007
    
    [GRAPHIC] [TIFF OMITTED] T5948A.008
    
    [GRAPHIC] [TIFF OMITTED] T5948A.009
    
    Mr. Culberson. Thank you very much, General. We have about 
9 minutes remaining in this vote. Perhaps when we get down to 
about 5 or 4, we are just going to have to adjourn. We will go 
vote, catch the beginning of the next vote, and come right 
back. There are two votes scheduled.
    I am sorry. Oh, there are three votes scheduled. Okay; very 
good.
    Let me, if I could, recognize briefly, if there is--how 
much time have we got?
    Okay.
    Admiral Greenert, if we could, sir, ask you to summarize--
we will get into the details during the questioning. Thank you, 
sir, for being with us.

                           Opening Statement

    Admiral Greenert. Thank you, Mr. Chairman, and Chairman 
Culberson, Ranking Member Bishop, distinguished members of the 
committee, it is my honor to appear before you for the first 
time to discuss the Navy's budget submission. Because of the 
dedication of over 625,000 active and reserve Sailors and 
civilians and their families, the Navy and our primary joint 
partner, the Marine Corps, remain a vital part of our national 
security.
    I am honored to lead and serve in the Navy in these 
challenging times, and I thank the committee again for your 
continued support. This morning, I would like to summarize my 
enduring tenets and the priorities and how they shaped our 
budget submission.
    Today our Navy is the world's preeminent maritime force. 
Our global fleet operates forward from U.S. bases and partner 
nations, I call places, around the world to deter aggression, 
respond to crises and when called upon, to win our nation's 
wars.
    If you refer to the chart that I have provided there in 
front of you, you can see that on any given day, we have about 
50,000 Sailors and 145 ships under way with about a hundred of 
those ships that are underway deployed overseas. These ships 
and Sailors allow us to influence events abroad because they 
ensure access to what I will refer to as the maritime 
crossroads.
    These are areas where shipping lanes and our security 
interests tend to intersect. These crossroads are indicated by 
sort of orange bowties, if you will, on the chartlet. We can 
remain forward in these areas because of the facilities abroad 
and the support from nearby allies and partners.
    Now when I assumed the watch about 6 months ago as CNO, I 
established three key principles for our decision making.
    I call them tenets--and to me, they are my clear, 
unambiguous direction for our Navy leadership as they deal with 
challenges--and they are war fighting first; operate forward; 
and be ready.
    Now ``war fighting first'' means the Navy must be ready to 
fight and prevail today while building the ability to win 
tomorrow. This is our primary mission and all of our efforts 
must be grounded in this fundamental responsibility.
    Our 2013 budget submission makes deliberate targeted 
investments in facilities and programs assured so that our 
Sailors and their ships, aircraft and equipment can maintain 
war fighting capability.
    ``Operate forward''--that means we will provide the nation 
an offshore option to deter, influence and win in an area of--
in an era of uncertainty. Our ability to operate forward 
depends on U.S. bases and host nation places overseas where we 
can rest, repair, refuel and resupply as necessary.
    Our 2013 budget submission funds these facilities to 
support forward deployed naval forces, destroyers in Rota, 
Spain and mine sweepers and patrol craft in Bahrain. 
Additionally, funding supports command and control and 
logistics in Djibouti and Diego Garcia and in Souda Bay, 
Greece.
    ``Be ready''--that means we will harness the teamwork, the 
talent and the imagination of a diverse force to be ready to 
fight and responsibly use our resources. This is more than 
maintenance, parts and supplies. Being ready also means 
supporting our Navy families, providing training facilities and 
ensuring adequate housing.
    Following the tenets to meet defense strategic guidance, we 
built our 2013 budget submission on three main investment 
priorities. Number one: we will remain ready to meet our 
current challenges today. I am committed to fund that base 
operating support and facilities, sustainment and 
modernization.
    Our 2103 budget submission funds port operations, flight 
line operations, safety programs, public works and facility 
upkeep.
    Priority two: we will build a relevant and capable future 
force. In addition to supporting my tenet of operating forward, 
our 2013 budget submission invests in facilities to support new 
platforms and systems such as the broad area maritime 
surveillance unmanned air systems, called BAMS, Aegis combat-
system upgrades, the EA-18G Growler and the MH-60 helicopter.
    And priority three: we will enable and support our Sailors, 
civilians and their families. We have a professional and moral 
obligation to lead, train, equip and motivate them. And our 
budget submissions support the family and professional 
readiness of our Sailors and civilians.
    We are funding construction, restoration and sustainment of 
our homes and barracks. We are also funding programs to address 
operational stress, support our families and eliminate the use 
of synthetic drugs such as Spice and aggressively prevent 
suicides and sexual assaults.
    In closing, your Navy will continue to be critical to our 
nation's security and prosperity by assuring access to the 
global commons and being at the front line of our nation's 
efforts in war and in peace.
    I assure the committee and the Congress and the American 
people that we will be focused on war fighting first, we will 
be operating forward and we will be ready.
    I want to thank you, Mr. Chairman and the committee and 
those that sit behind you; your helpful staff members. They 
have been great support for us through the years. Thank you for 
your continued support.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5948A.010
    
    [GRAPHIC] [TIFF OMITTED] T5948A.011
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.911
    
    [GRAPHIC] [TIFF OMITTED] T5948A.012
    
    [GRAPHIC] [TIFF OMITTED] T5948A.013
    
    [GRAPHIC] [TIFF OMITTED] T5948A.014
    
    [GRAPHIC] [TIFF OMITTED] T5948A.015
    
    [GRAPHIC] [TIFF OMITTED] T5948A.016
    
    [GRAPHIC] [TIFF OMITTED] T5948A.017
    
    [GRAPHIC] [TIFF OMITTED] T5948A.018
    
    [GRAPHIC] [TIFF OMITTED] T5948A.019
    
    Mr. Culberson. Admiral, thank you very much.
    If we could, General Dunford, we are going to--and General 
Schwartz--we are going to have to take a brief break; go take 
care of these votes. And we will be right back and resume the 
hearing as soon as the votes are concluded.
    The hearing will stand in recess. We will be right back.
    [Recess.]
    Mr. Culberson. The committee will come back to order.
    We finished our votes and would welcome your testimony, 
General Dunford. And again, if you would summarize your 
remarks, and we will of course enter your full statement, as 
with all your statements, for the record.
    Thank you, sir.

                           Opening Statement

    General Dunford. Chairman Culberson, Ranking Member Bishop, 
members of the committee, thanks for the opportunity to 
represent General Amos and report on the quality of life and 
the military construction priorities in the Marine Corps.
    Right now, more than 24,000 Marines are forward-deployed 
and forward-engaged; 18,000 are in Afghanistan, while others 
partner with our Navy, are globally deployed, projecting 
influence, deterring aggression and poised for crisis response.
    As we rebalance and reset for the future we are going to 
remain focused on: recruiting and retaining high quality 
people; maintaining high levels of unit readiness; meeting the 
combatant commanders' requirements for Marines; and ensuring 
that we maintain appropriate infrastructure investment. While 
doing that, we will keep an eye to the future and properly 
invest in the capabilities we will need to meet tomorrow's 
challenges.
    Today, I will specifically address our infrastructure and 
quality-of-life initiatives. Our military construction and 
family programs are vital components of your force in 
readiness. This fiscal year we are proposing a $761 million 
military construction and family housing program. Our 
priorities are: aviation support facilities, training and 
education facility improvements; and replacement of inadequate 
and obsolete facilities at our bases and stations.
    This MILCON request accurately accounts for a reduced end-
strength of 182,100 Marines by the end of fiscal year 2016, and 
represents a reduction of 45 percent from previous years' 
submissions. Over time, we hope to realize additional savings 
by reducing large numbers of temporary facilities currently 
utilized to support our wartime growth to 202,100 Marines.
    As we reorient to the Pacific under the new defense 
strategic guidance, we will engage with the committee on 
evolving MILCON needs. Also, we will continue to rely on the 
sound stewardship of existing facilities and infrastructure to 
support our needs. In fiscal year 2013, we will again program 
our facilities sustainment funding at 90 percent of the DOD 
facilities sustainment model, an amount currently at $653 
million.
    Our fiscal year 2013 budget also provides $164 million in 
operations and maintenance funding to continue progress in 
achieving congressionally mandated energy goals by 2015.
    Finally, our budget reflects our commitment to keep faith 
with our Marines and their families. It includes robust support 
for our wounded, ill and injured Marines, our suicide 
prevention efforts, and our revised transition assistance 
management program to meet the needs of our Marines that are 
leaving active duty.
    In short, our budget submission provides for the 
infrastructure and quality-of-life programs necessary for us to 
remain at a high state of readiness and properly take care of 
our Marines and their families.
    I thank you for the chance to appear before you today, and 
I look forward to your questions.
    [Clerk's note.--The following statement was submitted by 
General Amos who was unable to testify due to unforeseen 
circumstance. General Dunford testified on his behalf.]

[GRAPHIC] [TIFF OMITTED] T5948A.020

[GRAPHIC] [TIFF OMITTED] T5948A.021

[GRAPHIC] [TIFF OMITTED] T5948A.022

[GRAPHIC] [TIFF OMITTED] T5948A.023

[GRAPHIC] [TIFF OMITTED] T5948A.024

[GRAPHIC] [TIFF OMITTED] T5948A.025

[GRAPHIC] [TIFF OMITTED] T5948A.026

[GRAPHIC] [TIFF OMITTED] T5948A.027

[GRAPHIC] [TIFF OMITTED] T5948A.028

[GRAPHIC] [TIFF OMITTED] T5948A.029

[GRAPHIC] [TIFF OMITTED] T5948A.030

[GRAPHIC] [TIFF OMITTED] T5948A.031

[GRAPHIC] [TIFF OMITTED] T5948A.032

[GRAPHIC] [TIFF OMITTED] T5948A.033

[GRAPHIC] [TIFF OMITTED] T5948A.034

[GRAPHIC] [TIFF OMITTED] T5948A.035

[GRAPHIC] [TIFF OMITTED] T5948A.036

[GRAPHIC] [TIFF OMITTED] T5948A.037

[GRAPHIC] [TIFF OMITTED] T5948A.038

[GRAPHIC] [TIFF OMITTED] T5948A.039

[GRAPHIC] [TIFF OMITTED] T5948A.040

[GRAPHIC] [TIFF OMITTED] T5948A.041

[GRAPHIC] [TIFF OMITTED] T5948A.042

[GRAPHIC] [TIFF OMITTED] T5948A.043

[GRAPHIC] [TIFF OMITTED] T5948A.044

[GRAPHIC] [TIFF OMITTED] T5948A.045

[GRAPHIC] [TIFF OMITTED] T5948A.046

[GRAPHIC] [TIFF OMITTED] T5948A.047

[GRAPHIC] [TIFF OMITTED] T5948A.048

[GRAPHIC] [TIFF OMITTED] T5948A.049

    Mr. Culberson. Thank you very much, General Dunford.
    At this time I would like to recognize General Schwartz.

                           Opening Statement

    General Schwartz. Mr. Chairman and Ranking Member, 
Subcommittee members, I join Mr. Hale and fellow Service Chiefs 
in thanking you for your support of the men and women of the 
United States Armed Forces.
    Appreciating that we must tighten our belts in military 
construction; military-family housing; and facilities funding--
as we did in other portions of the budget--the Air Force made 
correspondingly difficult decisions in the MILCON and related 
areas. In structuring our force to align with the new defense 
strategic guidance, we took care to protect our distinctive 
capabilities and core enduring contributions to the joint team.
    From a MILCON perspective, we continued to mature our use 
of centralized asset management principles to size our 
installations and infrastructure properly, building only where 
required infrastructure capacity was not available, or where 
our cost-benefit analysis validated the building of new, more 
efficient and functional facilities.
    The result of this effort is our $3.9 billion request for 
MILCON, military family housing and facilities, including $500 
million to sustain and modernize overseas family housing and to 
support housing privatization in the United States. Our budget 
request also includes accepting some risk with funding facility 
restoration and modernization at 90 percent of historic levels, 
and sustainment funding at slightly more than 80 percent of the 
OSD-modeled requirement.
    As part of our broader strategy, we took a deliberate pause 
in funding for military construction for systems that have been 
canceled, such as our divesture of the C-27 fleet, or that are 
deferred, such as programs delays associated with the F-35.
    By requesting $900 million less for MILCON than we did in 
fiscal year 2012, our $442 million request for MILCON in 2013 
allows us to devote limited resources to the most urgent 
combatant commander needs in new mission requirements. And as 
we execute our planned force structure changes, we will examine 
the corresponding infrastructure in base capacity requirements.
    We anticipate that our MILCON program for fiscal 2014 and 
beyond will be programmed at historic funding levels. With our 
planned force structure reductions in 2013, along with 
significant reductions that have occurred since 2005, we will 
continue to address the challenge of carefully managing excess 
infrastructure and suboptimal use of existing facilities.
    It is also important to note that locations where planned 
reductions are to occur are not necessarily at greater risk to 
realign or close than are any other installation. In this 
light, the Air Force supports OSD's requests to the Congress to 
consider future rounds of base realignment and closure actions 
to evaluate the existing base capacity.
    We believe that substantial cost savings from eliminated 
excess infrastructure can be realized only through formal BRAC 
deliberations and efforts to close installations fully, not 
through mission realignments and consolidations.
    Mr. Chairman and members of the subcommittee, we continue 
to scrutinize every taxpayer dollar that we spend as stewards 
of the nation's trust and her resources. On behalf of the men 
and women who proudly serve in the United States Air Force in 
our country, I thank you for your support. I look forward to 
joining the panel in addressing your questions.
    Thank you very much.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5948A.050
    
    [GRAPHIC] [TIFF OMITTED] T5948A.051
    
    [GRAPHIC] [TIFF OMITTED] T5948A.052
    
    [GRAPHIC] [TIFF OMITTED] T5948A.053
    
    [GRAPHIC] [TIFF OMITTED] T5948A.054
    
    [GRAPHIC] [TIFF OMITTED] T5948A.055
    
    [GRAPHIC] [TIFF OMITTED] T5948A.056
    
    [GRAPHIC] [TIFF OMITTED] T5948A.057
    
    [GRAPHIC] [TIFF OMITTED] T5948A.058
    
    [GRAPHIC] [TIFF OMITTED] T5948A.059
    
    Mr. Culberson. Thank you very much, General Schwartz.
    I know, from our perspective--I heard you say, General 
Dunford--and it is true, I know, for each and every one of 
you--that your top priority is to keep faith with the men and 
women that you represent who serve this nation in uniform. And 
that is true of this committee and the Congress.
    We are immensely proud of you, devoted to you, and will do 
everything in our power to help ensure that the men and women 
that you represent have peace of mind as they go forward to 
defend our nation.
    I know that Texans in particular, as a state, we send more 
young men and women to serve in the military from Texas than I 
think any other state in the union. We are immensely proud of 
you, have a great admiration for the work that you do.
    And we are deeply concerned. My constituents and I are 
deeply concerned about the direction that the Administration is 
attempting to take the United States military with these 
dramatic cuts that he is proposing.
    I know we have an environment in which we have got to find 
savings everywhere we can. And I am confident that with 
Chairman Young's leadership, that--and certainly our 
committee--is going to do our best to be frugal and wise and 
careful with our tax dollars.
    But I know that my constituents and I, as I say, share a 
new concern over this new defense strategic guidance that the 
Administration announced on January 5th of this year that he 
entitles, ``Sustaining U.S. Global Leadership and Priorities 
for the 21st century of defense.''
    As the Congressional Research Service correctly points at, 
this new guidance that Secretary Panetta has begun to implement 
but of course has to come through the Congress and we will have 
a significant say in whether or not that occurs.
    The CRS points out--and this is a significant concern to me 
as I know it is to other members of Congress--that this new 
guidance document that is designed to implement this new U.S. 
national security strategy that President Obama lays out--that 
``the conduct of the review''--quoting from CRS's analysis of 
it--``The conduct of the review had no congressional mandate; 
took place outside of the usual framework for crafting U.S. and 
DoD's strategic guidance and--including the quadrennial defense 
review and defense strategy.''
    And of course laws had been in effect for many, many 
years--require that the president submit to Congress a national 
security strategy every year, that the Department of Defense 
submit a quadrennial defense review report that is consistent 
with that national security strategy and containing a national 
defense strategy every 4 years, this is the law, and that the 
Chairman of the Joint Chiefs of Staff submit a national 
military strategy every 2 years.
    That has been the law; gives some stability and 
predictability to the process, allows the decision makers in 
Congress and in the United States military of the Pentagon, you 
know, a stable, predictable framework in which to make 
decisions and it has sort of been true throughout my life.
    I got this when I was in college. This was produced by 
Casper Weinberger, who was then Secretary of Defense in 1981. 
We certainly don't face this--you know, the Soviet Union, any 
more at this scale; but as Secretary Weinberger pointed out, 
you know, it is important that we have a clear understanding in 
this case of Soviet armed forces--their doctrine, their 
capabilities, their strengths and their weaknesses--is 
essential to the shaping and maintenance of effective U.S. and 
allied forces.
    And from what I can see--and I know many of my colleagues 
here, this concerns--certainly my constituents do--this New 
Defense Strategic guidance that President Obama has laid out 
looks like it sort of just pulled out of thin air, and has been 
presented to the Congress and the country. And I am deeply 
concerned that we are not taking, for example, account of the 
threat the Chinese pose to the country; the repositioning of 
forces around the world; the drawdown of combat brigade teams 
as just a whole variety of concerns that we have about the 
direction that this new strategic policy attempts to take us.
    Let me just ask a general question with that in mind and 
with the framework that we have in the past always followed 
with the quadrennial defense review and this careful thoughtful 
process that we have always followed and the strategy that we 
could always fight and win two wars in two fronts in two parts 
of the world all at one time. President Obama seems to be 
pulling back from that.

               DECREASES IN MILITARY CONSTRUCTION BUDGETS

    So if I could ask--since the Administration has asked the 
Department of Defense to reduce your overall budget by $450 
billion over a 10-year period, I would like to ask the Service 
Chiefs, since we are already seeing a trend to significant 
MILCON budget reductions from the services, if I could ask each 
one of you four? And then I will pass it on and save my other 
questions for later so everybody gets a chance.
    Would you each one of you talk to us about would you be 
able to meet your mission requirements if you have to implement 
that scale of cut?
    And, then, talk about what would then happen if 
sequestration kicks in. Are you going to be able to meet your 
mission requirements under those circumstances? And what area 
do you see the most risk?
    General Odierno. Mr. Chairman if I could----
    Mr. Culberson. I have a big-picture question.
    General Odierno. Yes, sure.
    With the reduction of the 80,000 in the active component, 
which is the majority of our budget reduction--although there 
are some other areas as well--in modernization readiness--we 
can meet two war requirements with the 80,000 reduction. The 
issue is if we have to do sustained operations like we have 
done in Iraq and Afghanistan. That is where we would have 
trouble meeting those requirements.
    So, as we go through this, our combat capability remains 
credible and will be ready enough to meet, in my mind, two 
contingencies.
    Where you run into a problem is if they have to conduct 
long-term operations for 4, 5, 6, 7, 8 years. That is where we 
would then have a problem meeting that requirement like we have 
over the last several years in Iraq and Afghanistan----
    Mr. Culberson. I do note that Secretary Panetta was 
speaking February 1, shortly before a meeting.
    And I am quoting from a February 4 article in The 
Economist--on a February 1 mission--this is a response to what 
you just pointed out, General--that Leon Panetta ``dropped a 
bombshell,'' The Economist says. He says, ``We now hope that 
American troops in Afghanistan will be able to withdraw from 
combat to an enabling role soon after the middle of next year; 
about 18 months earlier than planned.''

                          AFGHAN MISSION RISKS

    General Odierno. My assessment of that, and conversations I 
have had with Secretary Panetta--I will not speak for Secretary 
Panetta--but our strategy all along in Afghanistan has been to 
turn more and more responsibility over to the Afghan Army as 
they become capable. And I think that is the strategy we have 
been executing now for quite some time.
    And I think Secretary Panetta was pointing out that we 
would still be there, but we would turn over more 
responsibility to the Afghan Army by the end of 2013.
    And I think that is a judgment that will be made in theater 
in consultation with General Allen and General Mattis as we 
move forward. And, as the Army, we will support the decisions 
in order to provide the capabilities to support their decisions 
as they move forward.
    Mr. Culberson. Thank you, General.
    Before we--in Afghanistan--if you could, each one of you, 
talk about what risks you see for--can you accomplish your 
mission requirements and what areas do you see the most risk?
    General Dunford. Chairman, we actually, inside the Marine 
Corps, began a strategic review in the fall of 2010 and 
continued it on through the most recent strategic review in the 
department.
    And when we took a look at the nation's requirements for 
Marines, we, at that time, came up with a number of 186,800 
Marines; enough Marines to meet a single major contingency 
operation as well as to do crisis response elsewhere in the 
world simultaneous to that contingency operation.
    We are very comfortable that the current budget and the 
size of the Marine Corps in the budget--182,100 Marines 
supports the strategy, and supports the needs of the combatant 
commanders. The places where we assumed some risk is in our 
response to something in addition to that single major 
contingency operation; its capacity. So we reduced some 
capacity to get from 186,800 to 182,100 Marines.
    The other thing we did and--and we are comfortable with 
this--is we originally had planned for 99 percent manning level 
for our units, for our enlisted Marines. And we adjusted that 
to 97 percent. So we accept the risk there, and we will have a 
slightly higher deployment to dwell ratio at 182,100 Marines.
    But the commandant has been involved in the discussions 
with the secretary. He is, again, very comfortable with the 
match between the current strategy and the budget that we have 
for the Marine Corps this year and comfortable that at a 
182,100 we can meet the combatant commander's requirements.
    Mr. Culberson. Thank you.
    I will save my follow up for my second round, in the 
interest of time.

                 BUDGET CONTROL ACT IMPACTS ON STRATEGY

    Admiral.
    Admiral Greenert. Thank you, sir.
    The strategy, as written in my assessment is--yes, we can 
meet that strategy with the following caveat.
    As I have displayed in the chartlet and I spoke to in my 
comments, we have to operate forward. There are the ways and 
means to do that with forward deployed naval forces in Rota and 
Japan and forward-stationing ships in Singapore and in Bahrain.
    To the extent we can do that, I am comfortable we can meet 
the requirement.
    My demand signal is called the Global Force Management 
Allocation Plan. And as written, as we approach 2013, and as we 
discussed through the FYDP, I am fine with that. To the extent 
that changes dramatically, I have to go back and look again.
    If sequestration were to take place then we need a new 
strategy and I think we have been pretty clear and consistent 
on the record with that.
    But on the current strategy--current lay-down with the 
budget--as submitted, I am comfortable.
    Mr. Culberson. The Navy could handle it, as the Army has 
testified, a two-war requirement, as long as we are not in a 
long-term obligation in Afghanistan or Iraq.
    Admiral Greenert. Yes sir, there is a capacity risk 
associated; and that is time for the Navy surging forward and, 
you know, getting enough there on time.
    And as the Chairman discussed in his testimony, and is 
written in our strategy, we are reviewing the lay-down and if 
you will--that timing too as we speak. And we will adapt and 
adopt this to 2020, which is our benchmark year on this defense 
strategic guidance and adjust accordingly.
    Mr. Culberson. Thank you, sir.
    General Schwartz.
    General Schwartz. Mr. Chairman, I concur with the 
assessment of the other Chiefs in that Air Force can meet the 
demand signal that is structured by the New Defense Strategic 
Guidance. And that includes responding to two major 
contingencies; certainly against a major or a peer advisory, 
and then another contingency that might unfold elsewhere that 
would not require quite the same level of effort as the first.
    For example, the new strategy, in my shorthand, does not 
require two regime changes. It does require two war-fighting 
capabilities. There is a distinction there and I think that 
your Air Force is structured to satisfy that.
    With respect to sequestration, all bets are off if that 
occurs.

                       NATIONAL DEFENSE STRATEGY

    Mr. Culberson. Thank you, sir.
    Mr. Hale. Mr. Chairman, I would like to respond briefly----
    Mr. Culberson. Please, yes sir.
    Mr. Hale [continuing]. To a point you made, if I may--I 
want you to understand this strategy did not arrive out of thin 
air.
    It was heavily debated by gentlemen at this table and the 
civilian leadership of the Department. It was carefully 
debated. I participated in some of those debates, so I know. It 
is important that you keep in mind the context within which the 
Congress passed the Budget Control Act on a bipartisan basis, 
which led to the reductions that we are accommodating with this 
new strategy. So I just wanted to make sure you understand--
that----
    Mr. Culberson. Oh certainly.
    Mr. Hale [continuing]. It was carefully considered.
    Mr. Culberson. Yes sir, I didn't mean to imply that it 
wasn't carefully considered but it did not follow the normal 
procedure that we have always followed----
    Mr. Hale. It wasn't a quadrennial review but then the 
Budget Control Act was passed last year and we needed to 
respond. But it wasn't out of thin air. I think that is a real 
important point.
    Mr. Culberson. Fair enough. Thank you.
    Mr. Bishop.
    Mr. Bishop. Thank you very much and thank you all for your 
service.

                           NEW BRAC AUTHORITY

    Mr. Hale, I want to direct my first round of questions to 
you.
    The 2013 budget request calls for two new rounds of BRAC 
and my question is: Is it being budget-driven or is it a result 
of the drawdown, which was planned? We just finished the 2005 
round last September. We have invested a lot of money into the 
infrastructure.
    I mean I hear you say that you debated heavily, but was 
there a concern that it was a little too early to do another 
round right on the heels of that one, given the fact that we 
still don't know the impact. What are you going to do with the 
units that you are moving from overseas? Where are you going to 
place them?
    Mr. Hale. Well our request for BRAC is driven by the force-
structure cuts that we are proposing, and the need to 
consolidate infrastructure. It was about 10 years between the 
1995 and 2005 round. It would be 8 years between the 2005 and 
the 2013 round. So in terms of time, I don't think it is that 
much different than past rounds.
    But the main thing that has happened is we have a new 
strategy and we have decided to make force structure cuts. We 
need to consolidate infrastructure.
    I know how painful this request is when Secretary Panetta 
was here, he spoke from personal experience; since he went 
through the Fort Ord closure while he was a sitting member of 
Congress.
    But it is the only effective way that we have to drawdown 
on infrastructure, so yes, we need these two rounds.
    Mr. Bishop. Well, don't you think that you ought to look 
overseas first?
    Mr. Hale. I think we ought to do that in tandem. And I will 
let the chief speak to this, because they will know more 
detail. But we absolutely need to look overseas.
    We are making reductions in our overseas presence in some 
places and that needs to be considered; and we will do that. We 
will do it at the same time. But we know there are changes that 
we need to make in our domestic infrastructure. And, again, the 
only effective way to do that is BRAC.

                         DOD DEPENDENT SCHOOLS

    Mr. Bishop. Okay. Let me commend you on your budget request 
for the DoD school construction. I understand that the 
Secretary was appalled when he found out about the conditions 
of the schools. Does the defense education and activity budget 
request of $546 million keep on track to recapitalizing more 
than half of the schools by 2015?
    Mr. Hale. I think because of executability it will be 2016. 
We need to do this in a measured way and be good stewards of 
the public's money, but yes we are moving forward. It was 
Secretary Gates who was really appalled, but I think all of us 
recognize we need to take care of kids and we need to fix those 
schools. So I think we will make half by 2016. That is our 
current best estimate.
    Mr. Bishop. What is the total cost of recapitalizing more 
than half by 2015 and is there a plan to bring all of them up 
to speed and what standards do you use to determine the 
adequacy of a school?
    Mr. Hale. The total cost--about $4 billion--so it is a very 
sizable sum of money, it is another reason we need to do it 
with care.
    I think we will look again as we get through the half. We 
picked the ones that were in worst condition--either condition 
or capacity--and we will look again as we get closer to the end 
of this round and see. I would assume there will be a need for 
some ongoing investments.
    And we tried to do this systematically, establish criteria 
based on condition. I mean we have a ratings scale of quality 
one to quality four--and also capacity--and, literally, did a 
stoplight chart on either of those two and picked the ones that 
had the worst problems in terms of capacity and condition. So 
we tried to do this systematically, and to be good stewards of 
the public's money.
    Mr. Bishop. What was the relative of all of the schools? 
And of course, you obviously picked the worst to address first. 
But generally what was the condition? You said there were four 
grade levels?
    Mr. Hale. Oh, I don't remember, I will have to get you that 
for the record--which ones were first and second and third or 
fourth. I don't have that in my head.
    [The information follows:]

    The DoD Education Activity schools are being assessed based on the 
DoD standard scale of Q1--Good, Q2--Fair, Q3--Poor, Q4--Failing. The 
current distribution is Q1--22%, Q2--12%, Q3--50% and Q4--16%. DoD is 
committed to all schools being at least at a Q2 rating or better by the 
end of Fiscal Year 2018.

    Mr. Bishop. I don't necessarily want to know the particular 
locations. What I am anxious to know, though, is the percentage 
that fell into each of those categories.
    Mr. Hale. You know, I am going to say there is 20 percent 
or 30 percent in the quality--may I supply that for the record 
because I am not sure of the numbers?
    Mr. Bishop. Yes, sir. Yes, sir.
    Mr. Hale. I can tell you a lot of these schools were built 
in the 1950s and 1960s. And so it is not surprising that they 
are getting old. Your staff may have these numbers for me if I 
am lucky.
    And it is not surprising that we need to rehabilitate them. 
I mean they are 50-60 years old in some cases.
    Mr. Bishop. My final question on this is why did the date 
slip from 2015 to 2016?
    Mr. Hale. Executability--and by that I mean this is a lot 
of money and there needs to be a planning process. We have to 
go out and do a detailed assessment of the school and then we 
need to establish a contract or a bidding process to get a 
contractor to do the work and it takes time. And we want to do 
it carefully, as I have said several times. We want to spend 
this money wisely. So we felt that the extra year was worth it 
in terms of ensuring that we were good stewards.
    Mr. Bishop. So you thought 2015 was premature?
    Mr. Hale. Well, I would like to have finished it by then, 
but I think we couldn't have executed it in a manner that was 
prudent.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you.
    I would like to recognize Chairman Young of Florida.
    Mr. Young. Mr. Chairman, thank you very much.
    I may be getting a little bit ahead of the game here. And I 
realize that we don't have a BRAC program yet, and we don't 
know what the recommendations will be but one concern that will 
go through Congress--especially the committees that have 
responsibility--is will these decisions be based on budgetary 
decisions or on mission decisions? And I would hope that your 
answer is going to be obviously, ``Yes--mission decisions.'' 
But we also know that the budget is a really big player, 
especially for fiscal year 2013.
    So if you want to comment on that, it would be okay if you 
want to but I have a specific question that is based to be 
hypothetical because we are getting ahead of you on the issue 
of BRAC.
    But the hypothetical question, the specific question is an 
issue that we have been much aware of for quite a long time is, 
and I think you have all heard conversations about Camp Perry.
    Camp Perry has been told to me and members of my 
subcommittee and members of this subcommittee, is extremely 
important to our mission in the European area. But there has 
also been considerable discussion about closing Camp Perry 
because of budgetary concerns.
    And I shouldn't expect you to have any specific answers on 
Camp Perry. But as a hypothetical, as an example, in a case 
like Camp Perry, would the need of the military in the European 
area outweigh the question of the budget--that might be dollars 
that might be saved--if Camp Perry was closed?
    Mr. Hale. Let me start out with the BRAC process in 
general, Mr. Chairman.
    We will look at every base. We will go out and solicit data 
from that base in terms of their operating costs. In the past 
rounds, we have had that data audited to try to be sure that it 
is accurate. And then we will compare that to the mission needs 
and the mission needs will reflect the force-structure changes 
that we are proposing.
    So I think the answer to your question is it will have a 
heavy component or mission. But, yes, budget comes into play if 
there are two bases that can handle the missions and one is 
cheaper, we are going to select the one that is cheaper.
    We will look at every base, every domestic base, we don't 
need BRAC authority overseas and I think we will proceed in 
tandem with that. [The Camp Perry one--I need help. We may have 
to take that one for the record.]
    [The information follows:]

    The Department believes the Under Secretary of Defense 
(Comptroller) addressed Chairman Young's hypothetical question 
about the need of the military in the European area outweighing 
the question of budget during the hearing and discussion about 
the BRAC process. Mr. Hale's reference about needing help with 
Camp Perry was addressed to other DoD witnesses, who had 
nothing else to add to the answer Mr. Hale provided Mr. Young. 
There is nothing more which can be added for the record.

    Mr. Young. Okay. Well, I mean I use this as an as example 
because it is probably not really high up on everybody's radar 
screen.
    Well, anyway we are concerned about that and one reason we 
are concerned is that as you very well know the BRAC process--
once it comes to Congress, we have a yes or no vote. We do not 
have any ability to affect or change anything dealing with 
BRAC. So as it proceeds, we will always have in the back of our 
mind the question of mission versus budget. And believe me, as 
appropriators, we understand the importance of the budget. And 
I mentioned it for fiscal year 2011, fiscal year 2012. We have 
reduced by $39 billion below the president's budget request in 
order to meet the demands of the congressional leadership.

                          MARINES AND OKINAWA

    Several of the members of our colleagues just returned this 
week from a visit to Korea and Guam and Okinawa, and you all 
mentioned that issue in your comments. But their report is 
that--seems like everything is sort of confused right now and 
not exactly sure where the Japanese are going to be, whether or 
not there is appropriate room for Marines on Guam.

                            PACIFIC LAY-DOWN

    What can you tell us about this? I understand that this is 
not BRAC but this is something that you all have been talking 
about for a while.
    Mr. Hale. Let me start out--and I mean I can understand the 
confusion. We have been at this for more than a decade and we 
are trying to look for a plan that meets both countries' needs 
and is affordable.
    I am not going to be able to tell you a lot about the 
specifics beyond what I said in my statement. We are in active 
negotiations. There are discussions with the Japanese right 
now, still anticipate moving Marines off Okinawa, probably 
fewer than 5,000 at Guam. We still support the Futenma 
relocation facility but we will delink it from the move.
    But there are a lot of other questions that haven't been 
answered. Just how many will come off--costs--and those are 
still being discussed. And I don't really have more to tell 
you.
    Do you want to add to that? Okay.
    General Dunford. Chairman, I have been involved in the 
issue of the Pacific lay-down off and on since 2007. As you 
know, much of the discussion is pursuant to the agreed upon 
implementation plan of 2006.
    I would tell you this, for the first time since I have been 
involved with it, the plan that we have inside the Marine 
Corps, the plan we have inside the department, the plan we have 
inside the U.S. interagency and inside the Pacific command are 
all the same.
    In other words, we have a common vision of how to best 
support our nation's interests and the Pacific commander's 
priorities in the Pacific right now. We have gone forward with 
that plan to the Japanese. There were some negotiations early 
this month and in fact, as we speak, the final negotiation is 
going on again at the end of the month.
    But we have gone in with a plan and, I think, very much, 
again, it supports our nation's interest as well as the Pacific 
commander's priorities. And we are confident the negotiating 
team went in there and articulated that in such a way that will 
be successful; and will come back with a plan that is 
sustainable.
    Mr. Young. Thank you very much for that. I know that you 
are going to work it out and I told our travelers that they 
will work it out. And I understand the confusion now.
    Mr. Chairman, just one more quick question.
    And I go back to BRAC for just a minute. When the BRAC 
Commission is established--and we know who the commissioners 
are, and they begin their work--will you as the chiefs of the 
services--will you have opportunity to have input into their 
negotiations or the considerations that they will be 
considering as far as any changes that they make? Or will you 
be left out of the picture?
    General Schwartz. Sir, it is certainly my expectation--I am 
sure shared by the others--that the input that the Department 
makes would be one in which we, as the Service Chiefs, have a 
major role. And that, yes, we would have an opportunity perhaps 
even to testify before the BRAC Commission in order to assure 
that the interests of the respective Services are well 
understood.
    Admiral Greenert. Mr. Chairman, if I may--we actually are 
thinking of benchmarking the way we approached the ``Don't Ask, 
Don't Tell'' repeal from the perspective of how does the fleet, 
in our case--the fleet see it--and senior enlisted officer--
what is important; and bring all of that together to myself, as 
shared in the tank with the service chiefs; bring it to the 
secretary and have a very holistic look with feedback to be 
sure that we are taking everything into account--to your point 
earlier, not just money, but military utility and other second 
or third-order effects.
    General Odierno. Congressman, we will have the opportunity 
to identify people that will clearly support the commission. We 
helped to recommend criteria that they should look at as we 
look to conduct BRAC, and I think those are very important 
inputs.
    And so we do have an opportunity to shape this as we move 
forward, and we will work very closely with the commission and 
with Congress as we do this.
    Mr. Young. Well thank you all very much for that.
    And for those of you that I have had a chance to work with 
over the years, you know that I have complete confidence in the 
military; allowed to participate in these major issues. You 
will work it out. And you work it out in such a way that it is 
effective and definitely in the interest of our readiness and 
our soldiers who provide the readiness.
    So thank you very much, and I apologize for trying to get 
into your head ahead of the BRAC situation, but we have 
confidence in--you will work it out the way it is right though.
    Thank you Mr. Chairman.
    Mr. Culberson. Thank you Chairman Young.
    I want to reiterate something Chairman Young said. I know 
that, certainly for my part--I know my colleagues, I am 
confident, feel the same way--we want to be sure that your 
work, your decisions are driven by the mission and not the 
budget; as we always have been. That is why I thought it is 
astonishing this is already 30 years old. Because our tradition 
has always been that your work, your decisions, the work that 
we do together is driven by the mission and not the budget.
    We want to make sure that stays that way. So as you go 
through your answers in the testimony today, I hope you will 
have a chance to address that. Thank you very much.
    Let me recognize my good friend from California, Mr. Farr.
    Mr. Farr. Thank you very much Mr. Chairman. This is a very 
important hearing and I appreciate the service, the career 
services, of all the gentlemen here.
    And I appreciate Mr. Young's discussion on BRAC. I have 
probably been more BRAC-ed than any other member of Congress. I 
have probably more BRAC experience and am knowledgeable about 
reuse than any other member because, as Mr. Hale pointed out, 
my predecessor, Secretary Panetta had Fort Ord BRAC-ed under 
this service in the Congress and left it to me to see the 
closure and reuse.
    And out of that I have really become knowledgeable of the 
process. But also because of the challenges of BRAC; of the 
Naval Postgraduate School being, one time, looked at; Defense 
Language Institute; of being able to figure out how to get the 
best uses out of these institutions.
    And I just gave everybody a copy of what we have done 
locally as to figure out, ``How do we get best use out of 
collaboration?'' Because although there is a collaborative 
sitting at this table, they are all sitting at the top of huge 
silos that go all the way down, all over the world on the 
ground.
    And often at the ground level there is no inter-operational 
discussions or knowledge of what others do. So we have been 
trying to do that to essentially get the best bang out of the 
defense buck.
    And we have learned in the process that we still--although 
we closed the largest military training base in the United 
States and, frankly, the first one that was ever integrated--
training base integrated in the United States was Fort Ord. But 
we lost a lot in our local economy. But we have been able to 
grow the remaining 11 different installations or operations 
into a $1.4 billion military expense. So, my questions are 
going to be about that.
    And I have four questions for General Odierno and four 
questions for Admiral Greenert. And then I will, on the second 
round, get into some BRAC questions.

                       DEFENSE LANGUAGE INSTITUTE

    All you know is that DoD's premier language and cultural 
training location is in Monterey, California at the Defense 
Language Institute in collaboration with the Naval Postgraduate 
School, which teaches a variety of international military 
students regional geography and cultural anthropology with 
common standards for active and reserve component personnel.
    The mission essential requirements for the Civil Affairs 
Officers are the very same programs already being conducted at 
both schools; foreign language training, regional geographical 
training and cultural anthropology training.
    And so having said this, my question to General Odierno is, 
can you tell me whether the decision has been made about who 
owns the proponency of Civil Affairs? Is it Special Ops or is 
it TRADOC or who is the owner of that?
    General Odierno. In fact, Congressman, last week we were 
doing a SOCOM talks and this was one of the topics we 
discussed. And we have not yet decided proponency. And it is a 
discussion we have to have because there are two types.
    We have Civil Affairs supporting Special Operations forces. 
We have Civil Affairs supporting conventional forces. And we 
have to bring these together. And so our discussion is, how do 
we bring these together to be more efficient about training 
Civil Affairs?
    So we have had several options that we are currently 
looking at--first, to establish proponency; and then, where 
would we do this training? So, we are still taking a look at 
this. And this is something that I have asked TRADOC to work 
with Special Operations Command to provide recommendations back 
up to the Department of the Army on where we move on this. So 
this is still in progress.
    One of the course of actions we are considering is in fact, 
``Could it be co-located with DLI in Monterey?'' That is one of 
the course of actions. One of the course of actions is also 
that it would consolidate at Fort Bragg. And so those are the 
types of things that we will continue to discuss as we move 
forward, Sir.
    Mr. Farr. Well, you know I am a strong proponent for 
Monterey because you have got the language component there. 
That is already there. You have the operations with the Naval 
Postgraduate School. You have Fort Hunter Liggett as an 
incredible 168,000 acre training base, can do brigade on 
brigade. It is huge.
    So, I am keen on trying to leverage whatever is possible to 
get you to decide that Monterey is the place. And because of 
the closure of Fort Ord, we still have a lot of defense--
actually Army lands that are available and Army facilities that 
are available.
    You are aware of all the assets that are already there and 
how good they are?
    General Odierno. Congressman, first I would tell you that I 
was a battalion commander in 1992 at Fort Ord, California when 
it closed. So I am very aware of the capabilities. I spent a 
lot of nights and days at Fort Hunter Liggett and Camp Roberts 
and I actually just visited, about 2 months ago, both the 
Defense Language Institute and the Naval Postgraduate School 
because of what it brings to our force. And I am trying to 
figure out how we better leverage those for other activities we 
have ongoing in the Army.
    Specifically, we are putting together a Strategic Planners 
Program that we think will include both the Defense Language 
Institute and the Naval Postgraduate School to help us to 
develop this.
    So we understand the capabilities out there. And I 
personally understand the capabilities out there. And we want 
to utilize them to the best extent we can because it is, 
frankly, a national treasure.
    Mr. Farr. Thank you.
    National treasure--last time we heard that in this 
committee was--General Abizaid was here as regional commander, 
and he got his training in Arabic at the DLI. And I was asking 
the question of whether those were great assets in theater. And 
he said exactly the same thing you did.
    He said it is a national treasure to this committee and he 
said something really profound. He said, until Americans learn 
to cross the cultural divide, we will never maintain peace.
    And I argued that if you want to learn to cross the 
cultural divide, Monterey is the place to do it. So, thank you 
very much.

                       NAVAL POSTGRADUATE SCHOOL

    I have a question for Admiral Greenert. I think you are 
familiar with the initiative at Naval Postgraduate School to 
provide regional security education and cultural awareness 
training to deploying naval carrier and expeditionary strike 
groups.

                    NPS--CULTURAL AWARENESS PROGRAMS

    This program is called RCEP. It was created in the wake of 
the terrorist bombing of the USS COLE to ensure that commanders 
and personnel assigned to deploying naval forces are aware of 
historical context and strategic importance of current issues 
in and regions in which they will operate.
    In a recent addition to the RCEP--a recent addition to the 
RCEP Program has been the cultural awareness training to 
prepare each sailor and Marine for cultural sensitivities 
encountered as they get off ships or deploy in an area. And so, 
given our new focus on the Pacific arena, and the richness of 
the myriad of cultures that reside there, wouldn't the 
specialized regional security education and cultural awareness 
provided by RCEP Program be greatly--of great benefit for 
forces deploying in PACOM?
    Admiral Greenert. Congressman, absolutely.
    And I think we have budgeted accordingly. And in fact, as 
you said, it has got a pretty good return on investment. I have 
to be honest with you, when I first saw it I thought, what are 
we going to do with this?
    And then we listened to the strike group commanders come 
back and say what a great help it was; and how it did 
everything from reducing the liberty incidents ashore, which 
can become a strategic problem, to enabling folks who go ashore 
to do community projects immediately, you know, integrate and 
get a big return on investment. So, sir, we are in.

                  NPS--INTERNATIONAL STUDIES BUILDING

    Mr. Farr. Well I heard the program is being cut, you are 
assuring me that----
    Admiral Greenert. I am assuring you----
    Mr. Farr. All right. Thank you.
    Admiral Greenert [continuing]. That we are in. It is not 
going to get cut if I have anything to do with it, sir.
    Mr. Farr. Let me ask the same question about--I have been 
trying for more than a decade to persuade the Navy to build a 
new academic building for the international studies at the 
Naval Postgraduate School. It has been in the FYDP for many 
years, but kept getting pushed to the out-years. Unfortunately, 
it completely fell off the FYDP list this year.
    The programs that would be housed in this new building are 
sorely needed by the Navy, particularly with the president's 
pivot for the Pacific. The Center for Homeland Defense, the 
Defense Resources Management Institute, the National Security 
Affairs, the Center for Civil-Military Relations, the Center 
for Post-Conflict Stabilization and Reconstruction Studies, the 
International Students Program Office, the Dean's Office, and 
other academic groups such as the Global Public Policy Group.
    So I am just wondering if we can get that back on and work 
with us to get the SIGS building back on the FYDP?
    Admiral Greenert. We will go back and take a look at it, 
sir. I am not familiar with it, but I will go look at it. I 
understand your interest and we will give it a good review in 
this FYDP.
    Mr. Farr. Yes, well, we have something in there for Big Sur 
Navy, and that could be easily--the Navy left there a long time 
ago, so that might be something you could transfer to this 
project. I appreciate that.
    Let me just read some, and that is the end of it. Both to 
the General and Admiral--my next comment is about the joint FAO 
program located in Monterey.
    I want to commend you both for your robust support for the 
FAOs, and particularly for the Navy, growing their program so 
quickly.
    The Joint FAO Program is housed at the Naval Postgraduate, 
but DOI provides individual language instruction to the FAOs 
when they are on campus for refresher courses in their regional 
skill development. It has been particularly popular with the 
FAOs and critical to our national security strategy and 
deserves to be POM.
    I mean, the question there is really for Mr. Hale--is that 
can we work with you in seeing that we can get that program 
POM'd in the Joint FAO Program?
    Mr. Hale. We will look at it in the Program/Budget Review 
for 2014. I don't want to make any promises I can't keep, but 
we will take a look at it.
    Mr. Farr. Thank you very much.
    Thank you, Mr. Chairman. I will save the other questions 
for round two.
    Mr. Culberson. Sure. Thank you, Mr. Farr.
    And I want to make sure that I note that Admiral Greenert 
and General Dunford have a hard stop at 12:30 to enable them to 
go and testify in front of Chairman Young's subcommittee, as I 
know you do, too, sir, nearby. So with that in mind, and we 
really appreciate you being here, Chairman Young, I want to 
recognize--and again, we are going to go in the order in which 
the members arrived at the hearing.
    Mr. Austria of Ohio.
    Oh, sorry. I can't see him there. I apologize.
    All right; Mr. Flake, Arizona.
    Mr. Flake. Thank you, Mr. Chairman.
    Mr. Hale, with regard to OCO budget request for 2013, it 
includes full funding for the current force levels in 
Afghanistan and despite discussions that there will be a 
drawdown before the end of the year. A CQ article published in 
January of this year noted that, ``Some of the extra room may 
be needed in the event of automatic spending cuts.''
    To what degree was your OCO request influenced by the 
possibility of sequestration?

                             SEQUESTRATION

    Mr. Hale. We are still working with OMB to fully understand 
how sequestration would work. But it does appear that OCO would 
be affected, and I think that is one of the many reasons why we 
need Congress to do something to get rid of this thing called 
``sequestration.''
    Mr. Flake. Well, my concern is that we--just honest 
budgeting. OCO isn't subject to the spending caps. And so, if 
there is further drawdown, do you see that OCO funds being 
transferred to use for other items?
    Mr. Hale. Well, first off, let me say why we stayed at 
68,000 troops for the fiscal 2013 level, which is: We did not 
want to tie the hands of the president in terms of decisions he 
might make. We want him to be able to make the decisions based 
on fiscal 2013 troop levels, depending on what his commanders 
tell him and based on conditions on the ground. And we can't 
know those now, and so we budgeted at 68,000.
    If there are further drawdowns below 68, yes, it may yield 
some further reductions in OCO. My experience has been that the 
drawdowns tend to take place right at the end of the year, 
because the commanders want to keep troops as long as they can. 
So I think the savings might be quite modest, but it is 
possible. And in that case, then we would need to work with OMB 
and Congress to decide how to accommodate it. There may be 
other higher bills, there often is, but we would have to work 
that in execution.
    Mr. Flake. Right. Now keep in mind I am not trying to cast 
blame on the military for the way we account here in Congress. 
We do this all the time, plus-up those accounts where there is 
no budget cap. I just hope that we can.
    And I have written a letter along with some of my 
colleagues to the chairman of the Appropriations Committee to 
make sure that we have a more realistic honest accounting on 
the budget side. If these are OCO accounts, they should be used 
for what they are designated for, and not just as a way to move 
money around later.
    But anyway, I know time is sensitive, so I will go on and 
yield my time back.
    Thanks.
    Mr. Culberson. Thank you, Mr. Flake.
    I recognize my friend from Virginia, Mr. Moran.
    Mr. Moran. Thank you very much, Chairman Culberson.
    I just got some numbers by--provided by my excellent staff. 
And as you know, our staffs are terrific. They check these 
numbers. Over the last 3 years, Mr. Chairman, military 
personnel has gone down by 2 percent, operations and 
maintenance went up by 8 percent, procurement went down by 3 
percent, RDT&E--we are very interested in them--went down by 8 
percent.

                      DECREASE IN MILCON SPENDING

    But here is the shocker. Military construction went down by 
35 percent over the last 3 years. So I guess my question to the 
distinguished panel is: Is it something Chairman Culberson did? 
I mean, what is the problem here?
    ``What is up with that?'' is the appropriate question. That 
is the question I will pose. Maybe Mr. Hale has an answer----
    Mr. Hale. Mr. Moran, what years were those, just so I 
understand?
    Mr. Moran. From fiscal year 2011 to fiscal year 2013.
    Mr. Hale. Okay.
    Mr. Moran. It is assuming that budget request for each 
year.
    Mr. Hale. Right. And I mean, as I said in my statement, you 
heard from the chiefs, we re-phrased military construction. We 
don't know for sure yet what projects we will in view of the 
force cuts that we are proposing.
    And so, yes, there are cuts in fiscal 2013. I would 
anticipate that you will see them restored in the out years, 
where we need the military construction. But there definitely 
was a re-phasing in this budget, and that is driving the 
numbers that you just mentioned.
    Mr. Moran. So you backed into the budget number by taking 
it out of MILCON. I can understand that. I don't mean to give 
you a hard time.
    Mr. Hale. No, I really don't think we backed into it.
    Mr. Moran. Well, I won't argue with that, yes. The 
efficiencies line, which some might suggest is a bit of a fudge 
line. So let me address this to our undersecretary responsible 
for budgets. But in fiscal year 2012, you proposed more than 
$150 billion in efficiencies between fiscal year 2012 and 
fiscal year 2016. And now your budget identifies an additional 
$60 billion.
    So we are now talking about $210 billion in what are called 
efficiencies. The Army is going to save $19 billion by 
streamlining support functions, consolidating I.T. The Navy is 
going to save $6 billion by implementing strategic sourcing of 
commodities and services. The Air Force is going to save about 
$7 billion by reducing service support contractors, re-phasing 
MILCON projects. And then, there are other efficiencies, $30 
billion including reductions in the Office of the Secretary.
    The question is: How do you intend to achieve these 
proposed efficiencies without further cutting the federal 
civilian workforce, which is not reflected in the budget?
    Mr. Hale. Well, we will do what we did a year ago. There 
was some of the same skepticism, I think, in fairness. And we 
have gone through a year when we took those $150 billion and 
made them specific. There are now specific targets, there are 
projects, there are people in charge, there are dates when they 
have to be done. There is an oversight process in the services 
and one in OSD.
    We will do the same thing with the $60 billion that we are 
proposing now. Some of them are already definite; some of them 
need to be specified. Could they yield changes in civilian 
personnel? Possibly, but we will do that only, Mr. Moran, if we 
think that we can essentially do it through efficiencies. We 
can still accommodate the mission.
    And I wouldn't expect large additional cuts in the civilian 
workforce. Many of them are more oriented toward our contracts, 
re-phasing MILCON, I.T. consolidation will be more heavily 
related to contractors. But there could be some.

                            MILITARY HOUSING

    Mr. Moran. Well, housing. Let me ask about housing. In 
2000, we spent $13.5 billion. By this year that is increased by 
almost two-thirds. The costs per member have gone up by 60 
percent. We now spend almost $14,000 per year, per service 
member on housing.
    In the mid-1990s, we had a report that 60 percent of the 
military's family housing was inadequate, and so under the 
Clinton administration we implemented this policy of 
privatizing housing on-base, and then meeting 100 percent--the 
basic housing allowance went up to 100 percent of the private 
market.
    Do you know what the figure is now? I am not sure it 
differs among agencies, but what is the figure now for the 
percentage of inadequate housing in terms of what we are 
providing on the numbers?
    Mr. Hale. I don't know that one, sir.
    General Schwartz. I can speak for the Air Force, sir. For 
us, we have 76,000-plus military family housing units. Of that 
total, there are roughly 10,000 that are considered inadequate, 
half of which will go away by the end of 2015. And we will, by 
the mandate of 2018, have implemented privatization fully. And 
we will have eliminated the inadequate housing stock.
    Mr. Moran. Well, it does seem--thank you, General--if that 
is the only specific. It is just an interest--it is a very 
specific interest in military construction appropriations 
subcommittee. It does seem as though the private housing has 
worked. I know in Belvoir it is nice housing.
    General Odierno. Congressman, if I could----
    Mr. Moran. Go ahead.
    General Odierno [continuing]. I can get back to you with 
specific numbers, but I would tell you that the Army has the 
largest amount of housing. And I will tell you the 
privatization of the housing has made a significant difference 
in the welfare of our families and our soldiers.
    [The information follows:]

    The Army's privatized housing program completed its privatization 
efforts at 44 installations in 2010. A total of 80,595 homes 
transferred with a projected end-state of 85,424 homes once the initial 
development periods are completed in 2016. This represents 98 percent 
of the Army's inventory in the U.S., to include Alaska and Hawaii. The 
other 2 percent will be provided through traditional MILCON means. Once 
transferred to a private partner, none of the privatized homes are 
considered to be inadequate. As of October 2011, the program has 
greatly improved the quality of life for Families by delivering 27,947 
new homes and 23,025 renovated homes.

    Mr. Moran. Yes.
    General Odierno. We have implemented that fully throughout 
all of our Army and the quality of life increases quite 
significantly. And so, the percentage of substandard housing is 
significantly lower than it was and I can get you the 
specifics.
    Mr. Moran. Yes. Well, it was a good idea and it worked. So 
just the very last thing, since I have got you--General 
Odierno.

                   ARLINGTON CEMETERY--COLUMBIA PIKE

    In 2005, the National Defense Authorization Act required a 
land exchange or 4\1/2\ acres between Arlington County and the 
Arlington National Cemetery. I would be interested to know what 
the status is of that land exchange and I understand we want a 
second land exchange with Arlington County. Why is that needed? 
I don't want you to take up too much time because I have got 
colleagues here that want to ask questions. But can you address 
it?
    General Odierno. Yes, please.
    Congressman, first I want to thank you for your support on 
this issue. It is an important one as we continue to look at 
the expansion of Arlington National Cemetery. This will be the 
second expansion project which moves into what used to be the 
Navy Annex.
    It has to really do about Columbia Pike. Right now, we 
simply can give 4.5 acres. We actually can give you more than 
that if we go south of Columbia Pike and then it would cause us 
not to have to have Columbia Pike in the middle of Arlington 
National Cemetery. We think it is something that we have to 
continue to work with the local authorities. We think it is the 
right solution that will allow us to expand Arlington National 
Cemetery.
    It will make it easier for us to sustain it. And frankly, 
we think it is also a better deal for the local governments as 
well. And so we are in the process of working with them on that 
now.
    Mr. Moran. I agree with you. It is the right thing to do, 
and I am impressed that the Chief of Staff of the Army is on 
top of this issue as well as he is. He has obviously gotten 
good staff briefing on this.
    I won't take up any more time.
    Mr. Chairman, thank you.
    Mr. Culberson. Thank you very much, Mr. Moran.
    We recognize the gentleman from Mississippi, Mr. Nunnelee.
    Mr. Nunnelee. Thank you, Mr. Chairman.

  IMPACT OF FORCE STRUCTURE REDUCTION ON MILITARY CONSTRUCTION BUDGETS

    General Schwartz, I have seen reviews on the personnel 
impacts on the Air Force's proposed force-structure changes. I 
really have not seen a lot of discussion on the military 
construction aspect of the force structure changes. Is the Air 
Force taking in to consideration any new construction costs 
that would be incurred as aircraft are relocated and if so, how 
are you doing that?
    General Schwartz. We have to perform the site surveys that 
are required to determine the exact project scope and 
requirements of relocation and so on. And so that is not in the 
2013 program. That would come in in subsequent program years, 
sir.
    Mr. Nunnelee. But would all of that be considered before 
any final decision is made on changes?
    General Schwartz. The transitions that we have already 
announced will occur have minimum impact in terms of MILCON. 
That was looked at as part of the process of deciding where to 
reduce the force structure.
    Admittedly, however, this was done as I would describe at 
tabletop level. It still requires on the ground surveillance 
and that will occur.
    Mr. Nunnelee. All right. Thank you.
    Thank you, Mr. Chairman.
    I yield back.
    Mr. Culberson. Thank you, Mr. Nunnelee.
    I recognize my friend from Georgia.
    Mr. Bishop. Thank you very much, Mr. Chairman. I apologize 
for having to leave. I had simultaneous hearings going on. 
Fortunately the other one was right across the hall.

                        PROPOSED BCT REDUCTIONS

    You know, I have, obviously, an affinity and great interest 
in the Army as well as the Marine Corps. I have both of those 
bases in my district. But in the February 27 edition of Inside 
the Army, you were quoted from a February 23 session with 
reporters, during your visit to AUSA, stating that the idea of 
dropping to 32 brigade combat teams was gaining traction of--
the cost of a plan in the works to add a third maneuver 
battalion to the services overall BCT structure.
    Now as the member who represents Fort Benning, the future 
brigade combat team structures is real important to me. So can 
you explain to the committee what it is that makes the change 
from 37 BCTs to 32 BCTs better overall for the Army and what 
potential installations would the additional reductions in the 
BCT forces come from, and how would that be implemented?
    General Odierno. First, there has been no final decision 
made on that. We have done significant analysis from training 
and doctrine command, both from an operational, strategic and 
tactical and across the spectrum of conflict of what is the 
organization that we need within the Army in order to best meet 
our future missions and it is clear that we need to have a 
third maneuver battalion in our brigade.
    Now, looking at that to decide how we would implement 
that--it eliminates some overhead, but frankly it would add to 
the number of battalions that we have to our brigade. So the 
overall numbers, whether it be 37 brigades or 32 brigades, of 
people would not change that much. It would just be a minor 
adjustment in the number of people; although you would lose 
some brigade flags.
    We have not done analysis yet on where those brigade flags 
would come out of because we want to look at--it would be based 
on facilities. It would be based on other decisions, if we 
decided to implement this strategy of going to a third maneuver 
battalion.
    And so our assessment would be done on the quality of 
training, capabilities at an installation, the quality of motor 
pools--and we would do an assessment of all of that and then 
make a decision.
    And we would also look at it from a perspective of 
sustaining, close to each other, our chain of command in our 
divisions. You know, so, for example, within Georgia, part of 
that is making sure we keep Third Infantry Division in Georgia 
as we continue to reorganize.
    So those would be the considerations that we look at as 
we----

                        THIRD INFANTRY DIVISION

    Mr. Bishop. With regard to the 3rd ID, there has been some 
discussion and some speculation that in the consolidation 
process, you are likely to bring home units that have been 
separated to their mother unit.
    For example, 3rd ID, is based at Fort Stewart with one 
brigade at Fort Benning. And so is Army planning to move the 
brigade from Benning to Stewart?
    General Odierno. No. Again, it is about analyzing the 
facilities that are available at each and how we can best 
maximize our training. What we don't want to do is incur any 
MILCON costs to ourselves as we walk our way through this.
    So we want to use existing infrastructure. We think we have 
the existing infrastructure to do this reorganization. But that 
is one of the considerations that we will look at before we 
make any decisions.
    Mr. Bishop. Thank you, sir.
    Mr. Culberson. Thank you, Mr. Chairman.
    I recognize my colleague from Texas, Mr. Carter, 
representing Fort Hood.
    Mr. Carter. Thank you, Mr. Chairman.

                   CENTRAL TECHNICAL SUPPORT FACILITY

    And to all of you, thank you very much for being here.
    First I would like to speak to General Odierno about 
something that is kind of important to Fort Hood right now. I 
want to talk to you about the central technical support 
facility.
    There is a recent suggestion that that should be moved to 
Aberdeen Proving Grounds and I want to first, I guess the 
question is, at the Army level, I know they have done a cost-
benefit analysis by--the CECOM command--but at the Army level, 
have they looked at this support facility?
    And specifically, I talked to the secretary of the Army 
about it. I would specifically like to point out that the last 
move that was made from New Jersey to Aberdeen, a report that 
was submitted about the lack of educated workforce to backfill 
the losses that they made by that move. I know you are an old 
Fort Hood soldier.
    And I can assure you that there are not very many people 
planning on moving out of Texas to Aberdeen, and so you would 
have to backfill that. And I think that is an important element 
to a cost benefit analysis that would have to be analyzed is, 
where are you going to get the educated workforce to meet your 
needs at Aberdeen if this move is made?
    So I would like to suggest the Army do an Army wide cost 
benefit analysis and take a hard look at this because it is 
really important to the people in my part of the world. They 
are all talking about what they are going to do when this 
happens, because they are not moving.
    You have any comments on that?
    General Odierno. First, Congressman, I would tell you that 
we have asked the Army to look at where you might be able to 
gain efficiencies. So there is a lot of sub-analysis that is 
going on that has not yet been brought up to the Department, 
and it might not ever make it up to the Department of the Army 
as we look at different ways to consolidate and save money 
based on what we think is best for continuing to improve our 
forces.
    So I would just tell you that the CTSF, which, as you know 
I am very familiar with, has not yet been brought up to our 
level. If it is, we will certainly make sure that we do a full 
Army cost-benefit analysis on it if it makes it up to our 
level.
    Mr. Carter. Well, I guess we all know that one of the 
things that is making our economy stutter is that there is so 
many unanswered questions out there at every level and these 
people are dealing with unanswered questions right now and it 
is making them very nervous.
    Another thing we are going to have to do, we all recognize 
it. We are going to have to reduce--there is probably going to 
have to be reductions in the civilian workforce on these posts 
and the contract workforce; the contractors. And I have got a 
couple of questions.

                CONTRACT SECURITY PEOPLE IN AFGHANISTAN

    What do you think that is going to do to the operation of 
the post? But more importantly, I heard from one of my 
colleagues that--one of our female colleagues--and she 
understood that we are pulling out of Afghanistan with our 
contract security people, 1 March.
    The people we have hired to do security in Afghanistan are 
going to be pulling out either the first of March or the end of 
March is what was reported to me and I assume that the Army and 
the Marines are going to have to fill in those security 
missions over there if that is the case.
    Do you have any knowledge about that or what is going on 
with that? Because we have heard that----
    General Odierno. Yes, I would just say I have not heard 
that specifically. That would be something that would be 
decided within CENTCOM. We have not been yet asked to backfill 
any requirements to support that. So I have not heard anything 
specifically about that yet.
    Mr. Bishop. Would the gentleman yield on that?
    Mr. Carter. I will be glad to yield.
    Mr. Bishop. Doesn't that funding come from the Department 
of State and not from the Department of Defense for those 
functions; those contractors?
    General Odierno. No it depends on what they are doing. And 
I would say there could be some that are Department of State 
but they also could be Department of Defense as well.
    Mr. Carter. Reclaiming my time--it could be the State, 
Department because it actually came from one of the 
subcommittee chairmen that deals with issues from state Foreign 
OPS subcommittee, and that concerned me a great deal. And I 
know we are about to shut down, but I have got to ask a 
question of General Schwartz if you don't mind.

                C-130 WING MOVING TO MONTANA FROM TEXAS

    General Schwartz, we have got a C-130 wing at Fort Worth 
that has been suggested to be moved to Montana from Texas. Now 
most of us that live in hurricane alley down here, we are very 
proud of that C-130 National Guard group that has responded to 
disaster after disaster after disaster on the Gulf coast from 
Florida to Texas.
    I have had colleagues from other states ask me about this 
issue because--especially our friends in Louisiana--because I 
understand that your C-130 Guard unit from Fort Worth was first 
on the scene in Louisiana for one of the hurricanes. These 
folks are being transferred up to Montana. Now I understand you 
had an F-16 group. Is that what you had up there?
    General Schwartz. It is F-15 Unit, sir.
    Mr. Carter. F-15 group? And they moved to San Diego?
    General Schwartz. California, that is correct.
    Mr. Carter. At least it was suggested to me that there are 
already noise pollution issues, a local ordinance that you are 
going to have to address there. Did you hear anything about 
that?
    General Schwartz. Sure. Sir, a couple of parts to this--
first of all, the relocation from Montana to California is 
driven by North American Aerospace Defense Command, air 
sovereignty requirements.
    To the Fresno Air National Guard wing in Fresno, 
California, it currently is equipped with F-16s, old F-16s. And 
the proposal is to relocate aircraft from Montana, which do not 
perform that mission at their current base, to a location where 
they would do it without having to leave their home base to 
perform the air sovereignty mission.
    That is the logic of using F-15s in the Guard to support 
the air sovereignty mission. Now, with regard to the unit at 
Fort Worth--we are reducing C-130 lift capability in the Air 
Force by 65 aircraft, 39 of which we will retire in 2013, for a 
total of 318 airplanes. Significantly, there are other C-130 
assets, admittedly not Air National Guard, but other C-130 
assets in the state of Texas. You are well aware, Abilene has 
28 airplanes. There are other National Guard assets in 
Arkansas, in Mississippi and so on for, you know, interstate 
compact employment and so on.
    And we are back-filling the C-130 unit at Fort Worth with 
the MC-12s, which is an important intelligence, surveillance, 
and reconnaissance aircraft that certainly would serve the 
border surveillance in counter-drug missions in your part of 
the world, sir; and employ all of the skills and some different 
skills frankly, that the former unit had in enduring mission. A 
mission that is going to be with us, sir for----
    Mr. Carter. How many planes would be in that----
    General Schwartz. Nine to 11, probably nine, maybe 11 MC-
12s, sir.
    Mr. Carter. It was very curious because this is considered 
a very prime asset. Our governor considers it a very prime 
asset to our state. He is concerned about it. And you are going 
to have to--do you have hangars in Montana, or you have to 
build C-130 hangars?
    General Schwartz. We would have to modify the existing 
hangars, sir.
    Mr. Carter. And retrain the pilots?
    General Schwartz. And a factor here is that there is no 
lift coverage currently in the Northwest portion of the country 
and then specifically for Federal Emergency Management Agency 
(FEMA) region 10. That was another consideration of, again 
trying to balance the coverage for potential disasters, as you 
have outlined. That might occur in the various portions of the 
country.
    Mr. Carter. So the Arkansas and the Mississippi Guard has 
been involved in these rescue issues also?
    General Schwartz. There have been routine occurrences of 
the interstate compact being executed. And Hurricane Katrina 
was clearly an example of when other states helped Louisiana 
and Mississippi to a great extent because of the damage that 
occurred.
    Mr. Carter. All right. Well, thank you very much.
    Thank you Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Carter. We just discussed 
that. I completely agree with Mr. Carter. We want to make sure 
those C-130s do not leave Texas. There is no apparent military 
or strategic necessity to do it.
    We suspect there are other reasons; because Texas doesn't 
vote right. And depending on the White House, it seems to be a 
pattern of behavior which is very regrettable; because, again, 
we want you to be driven by the mission, not the budget nor any 
other considerations.
    We need to do what is right for the nation regardless of--
obviously we have got to operate within the budget, but we want 
you to follow the mission and the needs of the United States of 
America and not political. So it is a little aggravating to us 
in Texas to see----
    General Schwartz. Mr. Chairman I can tell you forthrightly, 
I received no political influence on this decision process.
    Mr. Culberson. Oh I know you didn't, sir. I certainly don't 
mean to attribute that to you, sir. But it is certainly our 
impression from the White House, and we tend to see a pattern 
of behavior because Texas doesn't vote right, in their opinion. 
Actually we do vote right and exercise good common sense.
    I think Mr. Yoder----
    Mr. Bishop. Mr. Chairman, let us try to----
    Mr. Culberson. I am sorry.
    Mr. Bishop [continuing]. Let us try to stay focused.
    Mr. Culberson. You are right. You are right.
    Let me, if I could, Mr. Bishop, go to Mr. Yoder, please.
    I recognize Mr. Yoder.
    Mr. Yoder. Well thank you, Mr. Chairman.
    And gentlemen, thank you for your service to our country. 
And we are honored to have you here today, and certainly 
appreciate your candid comments on the challenges our country 
is facing.

            DEFICIT REDUCTION THAT ALLOWS HALT TO SEQUESTER

    I am a new member of the Appropriations committee and 
freshman member of Congress. Our Nation is faced with the 
looming threat of a fiscal crisis that created by our national 
debt; I know that this challenge is not understated or 
misunderstood by this panel.
    I was really stricken by the remarks that Admiral Mullen 
made last year and has reiterated. I think his quote was, ``I 
have said many times that I believe the single biggest threat 
to our national security is our debt.'' I also believe we have 
every responsibility to help eliminate that threat.
    As we are discussing the sequester, I know one of the 
gentleman spoke about figuring out a way to remove the 
sequester. That is a very hot topic on the Hill right now.
    I am also challenged by the frustration that many Americans 
think Congress doesn't keep its promises or follow through on 
the recommendations that it has made. Last August, through the 
debt-ceiling increase, legislation was passed that included the 
sequester. This legislation which, incidentally, I did not 
support, hit all portions of the budget pretty hard, including 
the Defense Department.
    Given that it is in federal law, and given that it was part 
of the recommendation, I am frankly challenged at how we undo 
that. How we go back on a promise that Congress made 5 or 6 
months ago to cut spending that was supported by a bipartisan 
majority, signed by the president.
    I am perplexed, particularly given Admiral Mullen's 
statements regarding the single biggest threat facing our 
country being the deficit and I think he went on to say, ``We 
must and will do our part.''
    And so I don't think anybody is suggesting we take a 
disproportionate share out of the Defense Department, but how 
do we not take a share--as the sequester relates, across the 
board from domestic and defense spending. How do we not do 
that? How do we go forward with the largest defense budget in 
the world; significantly larger than other countries.
    How do we go forward and what is the future of our defense 
spending in this country given the prognosis? What would you 
recommend to this committee and to the Congress regarding how 
we deal with both threats?
    Mr. Hale. Well let me start out--and I am going to quote my 
boss here. As Secretary Panetta has said repeatedly, ``What we 
need is a large, balanced package of deficit reduction that 
allows a halt to sequester.'' And I heard him say this 
repeatedly, it needs to consider everything--mandatory 
spending, revenues.
    And realizing how hard those things are, I think he would 
also say we have seen significant cuts already in the 
Department of Defense through the Budget Control Act, as well 
as in other non-defense discretionary spending. You are not 
going to solve the deficit by cutting discretionary spending, 
which is about a third of the budget, and not going after some 
of the tough, mandatory spending and yes, revenues are 
important as well.
    I know how hard that is. And I am not the guy to ask the 
details. But I think that is where he is coming from. And we 
hope that Congress will move in that direction.
    General Schwartz. Mr. Secretary, if I can just add an 
example though, not just of the contribution that defense makes 
that the secretary addressed, but--it is also the manner in 
which sequestration is executed. Across-the-board cuts without 
regard to program content--frankly, it is lunacy.
    I will give you one very good example. We have a firm 
fixed-price contract with Boeing for a new tanker. We got a 
good deal. We aren't changing anything. But if we go to 
sequestration, that contract is reopened and will have to be 
renegotiated. And I feel confident that we won't get as good a 
deal the second time around.
    In addition to the issues that the secretary mentioned, I 
think it is the manner in which sequestration is executed that 
is particularly worrisome.
    General Odierno. Congressman I would just add I think it is 
our responsibility to give military advice. And my position is, 
if we take above a $500 billion--which we have now--and look at 
the uncertainty in the world and all the things that could 
challenge us--if we continue to go forward with sequestration, 
I think it challenges our ability to provide defense and 
security to this nation in a variety of ways. And I think it is 
up to us to ensure that. That is what I believe as a military 
adviser.
    And I worry that if we have to reduce the Army another 
100,000 people, whether it be a--significant amount in the 
National Guard and Reserve, and some more in the active--it 
will impact everything from disaster relief; to support; to 
civil authorities; to our ability to respond to contingencies 
around the world. We would have to significantly cut 
modernization programs.
    Our readiness would be challenged. And as General Schwartz 
mentioned, because of the fact we can't choose where the cuts 
come, that they come evenly, we will have an imbalance within 
our own readiness and we will be back to having a potentially 
hollow force; where, if necessary, we would have to respond 
with something that might not be what we needed to respond to 
with, and ultimately cost us American lives.
    And I think it is up to us as military advisors to ensure 
that doesn't happen. And that is my concern outside of the fact 
that we have an issue with the debt.
    Mr. Yoder. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Yoder.
    I want to postpone some of my questions, because I know 
that we are going to lose the Marine Corps and the Navy here in 
just a minute, because of the hearing across the hall. So I 
would like to if I could go to my friend from California, Mr. 
Farr.

                               BRAC ROUND

    Mr. Farr. Well, thank you very much.
    And I want to thank Mr. Hale for mentioning it is also 
going to include revenues, not just cuts. And I want to ask 
you, Mr. Hale, if we are going to go into another BRAC round, 
it seems to me that sequestration with BRAC is like the perfect 
storm, or maybe the perfect train wreck; because it puts both 
burdens back on Congress to make the ultimate decisions.
    But you have been using the COBRA model. And I have been 
through a lot of these BRAC rounds. And I can't understand why 
you keep using the COBRA model. I think it is very subjective. 
It is not transparent. For example, community members can never 
find out the data upon which the cost benefits are figured out. 
It is not that information isn't available.

                        THE MISSION OF LANGUAGES

    Secondly, there is a mathematical formula--is so 
subjective. For example, in Monterrey we have an incredible 
support community out there of international, you know, 
personnel that live there that are the former professors--and 
big Korean community, big Vietnamese community and so on. How 
do you put a value on that, as far as in a BRAC model, to 
figure out whether the mission of languages ought to be 
enhanced to the DLI or moved someplace else?
    The question is are you going to reform or re-evaluate the 
manner in which you judge the worth of a base or mission, and 
will COBRA continue to be used, or will there be some other 
better instrument developed?
    Mr. Hale. You are going to have our installations and 
environment people here in a week or 2. I think it would be a 
good question. Let me tell you what I know, which is COBRA 
focuses The Cost of Base Realignment and Closure. That is what 
it stands for. It does look at the costs. We get them. We 
usually audit them. There are many other judgments that go into 
the BRAC process. And some of them are definitely subjective.
    We try to do them in a systematic manner. But I would ask 
you to pose that again to our I&E experts who are more 
familiar. I think you have got a hearing with them in a week or 
2, and I think they might be able to do a better job----
    Mr. Farr. Yes. I think you are going to get a lot of 
questions about BRAC. And that is obviously the basis for your 
decision-making. And----
    Mr. Hale. Well, it is the cost basis. But there are many 
other factors that get assessed. The mission needs are 
critical. And I think some of those are made outside of the 
Cobra model.
    Mr. Farr. I know you have to go. Bean counters just look at 
what is the cost. There is the value you--I think the value-
added is never included in. We have this problem in Congress. 
CBO----
    Mr. Hale. Well, I am one of those bean counters here, 
seriously.
    Mr. Farr. And the point is that----
    Mr. Hale. You know, it is not just costs that get 
considered in the BRAC process.
    Mr. Farr. General Odierno--about how do you put that value-
added of the whole Monterrey culture----
    Mr. Hale. Right.
    Mr. Farr [continuing]. Into those decisions that he has to 
make? Those aren't in there in dollars and cents.

                 MARINE LOGISTICS COMMAND CONSOLIDATION

    Mr. Hale. You are right. And they need to get in there 
through other ways, and they do. And their assessments are made 
of what the base can do to meet mission needs. And some of 
those are subjective, and they involve the military, as well as 
our civilian leaders.
    But let me ask you to pose that again to Dorothy Robyn and 
others that will be here in a couple of weeks.
    Mr. Farr. Don't worry. Thank you.
    Mr. Culberson. Sure. Thank you.
    Before we lose Admiral Greenert and General Dunford, I want 
to make sure I recognize anybody else who wants to ask a direct 
question to either one of those gentlemen before they have to 
leave.
    Mr. Bishop. General Dunford, if you will.
    Let me just ask you to talk about the logistics command and 
the recent reorganization and consolidation of logistics 
headquarters with Barstow and Albany. How is the consolidation 
going to work to ultimately make you more effective and 
efficient within the context of your budget constraints?
    General Dunford. Congressman, first I would say that one of 
the keys to our success over the past 10 years of war has been 
Marine Corps Logistics Command down in Albany. They have 
completely transformed themselves, and pushed the capabilities 
that they have forward into the theater to support our forces 
previously in Iraq and currently in Afghanistan.
    What we had in the past, as you know, was two separate 
facilities at Barstow and Albany. And although we did our best 
to try to make sure we had a distribution of effort across 
those two facilities, and were as efficient as possible, we 
decided that a single command that would have responsibilities 
for both the depot at Barstow and the depot at Albany was a 
more efficient way to do business.
    And that really, I think, is what you are alluding to now, 
the single commander responsible for those two positions that 
has a holistic view of all of our institutional reset 
requirements; particularly now as we come out of Afghanistan.
    And we will certainly need some significant support and 
reset coming out of Afghanistan. And critical to that support 
is what goes on in the Marine Corps Logistics command.
    Mr. Bishop. So we retired both of those subordinate 
commands. Then, they are being replaced by the overall----
    General Dunford. We actually now have a single Colonel that 
is in command of both the facility at Barstow and Albany. That 
Colonel reports to the commanding general of Marine Corps 
Logistics Command, General Hudson, who I know you know well.
    Mr. Bishop. Right. Okay.
    And how does that work with Jacksonville and Blount Island?
    General Dunford. General Hudson has responsibility right 
now for Blount Island, so our logistics enterprise has a 
singular command and control structure, which is General Hudson 
down in Albany, Georgia.
    Mr. Bishop. Thank you, sir.
    Mr. Culberson. Mr. Carter.
    Mr. Carter. Before I----
    Mr. Culberson. Very brief----
    Mr. Carter. Oh. Before we have to lose somebody, I find 
this very fascinating, actually.
    Fiscal year 2011 unemployment compensation for all services 
combined for $936,379--well $936 million, okay? The Army has 
the largest portion, which is $514 million of unemployment 
compensation.

                       UNEMPLOYMENT COMPENSATION

    I don't think anybody ever thinks about you paying 
unemployment compensation. At least I didn't. This is a lot of 
cost. And it looks like it would be prudent to maintain and 
come up with programs that maybe help us reduce the cost. And I 
know we are trying to transition as we move people out of the 
services into an employed situation; and this kind of ties into 
that.
    But all of the services are paying millions of dollars in 
unemployment compensation. Nobody can really guess what the 
cost is going to be from the drawdown, because the sequester is 
still out there which could be more people you are going to 
have to do.
    Have you looked at that and tried--and is that one of the 
things that you examine as you try to figure out how to 
transition people out of their needed position in the service, 
because we have to under sequester? I am concerned about the 
fact that we are gutting our military. I am very seriously 
concerned about it.
    But are we looking at these kind of costs when you do this, 
because I am curious about that?
    General Odierno. We are considering it.
    And you are right--$515 million the Army spent last year. 
And we budgeted about the same for fiscal year 2013. However, I 
would say it has gone up every year.
    Mr. Carter. Yes.
    General Odierno. Our portion since 2001--it has gone up 
every year, what we have paid for compensation for unemployment 
in the Army. But we have programs in place that look at and are 
in the process right now of revamping our transition programs.
    We have several private organizations--companies who are 
coming up with hundreds of thousands of jobs that they want to 
make available to veterans. So we are working very hard in how 
we connect the veterans to these companies. How we help them 
write resumes. How we continue to help them to prepare 
themselves to apply the lessons and things they have learned as 
part of the military in getting them a job.
    So it is first about defining and helping them to 
articulate what they have done in the Army and how it equates 
to a civilian job. We are putting training programs in place to 
do that.
    The second piece is how do we then link them up in on one 
site that will allow them to see all the jobs that are 
specifically available for veterans and to help them to see 
where they are, and how they are qualified and start applying 
for these. So that is all part of this.
    And actually the president has talked about a transition 
assistance program that is a cooperative effort between the 
Department of Labor, and the Department of Defense, and the 
Department of Veterans Affairs that we are now linking and 
putting together in order to help us with this problem. Because 
it is something we are concerned about.
    We are concerned about our soldiers not only when they are 
in the service, but when they leave the service. And we want to 
make sure that they have the ability to continue to contribute 
and be able to continue to take care of their families as they 
leave the Army. So it is something that we are very concerned 
about, and we are looking at it.

                        FORCE DOWNSIZING IMPACTS

    And it is something that on every installation we are 
putting programs in place to implement this.
    Mr. Culberson. Go ahead, sir. I know you and the Admiral 
need to leave.
    General Dunford. Congressman, General Amos talks a lot 
about keeping faith with our Marines and their families, and a 
critical aspect of that from his perspective is transition 
assistance. So we have over the past year in fact completely 
revamped our transition assistance program.
    You know, at one time it was kind of mass training. We now 
have a program that allows a Marine to walk through one of four 
doors. If the individual wants to go to college, we assist in 
going to college. If that individual wants to be trained in a 
trade, we support that. If they want to get employment, we have 
a network to support that. If the individual wants to be an 
entrepreneur, we have a program for them to be an entrepreneur.
    So we conducted a pilot over the last 6 to 7 months to do 
that complete transition. The pilot is complete. And I am proud 
to tell you that in March of this year, the new transition 
assistance program will be implemented across the Marine Corps. 
And I think we will significantly assist our Marines in making 
a transition.
    We are going to have a holistic view, and help Marines 
begin a transition actually from day one when they join the 
Marine Corps. But right now our focus is on 180 days before and 
after they get out of the Marine Corps to make sure we 
facilitate this transition during a very difficult time.
    And of course the other thing we are doing is asking for 
some assistance in controlling the off ramp of Marine forces 
over the next several years between now and 2016. And we think 
that number of 5,000 plus or minus each year will actually be 
manageable and help us to assist in a smooth transition of 
Marines so we don't lose them all at one time and create more 
difficulty in--in a very difficult job market.
    Mr. Culberson. Thank you, General Dunford. I know that you 
and Admiral Greenert need to step out to go to Chairman Young's 
hearing.
    Do you want to add anything to that briefly, Admiral, 
before you go?
    Admiral Greenert. The only thing I would add--our programs 
are all very similar. We have a thing called Shipmates to 
Workmates. We talked a little bit about the lament we have for 
civilian personnel management. A lot of our sailors can 
transition. They have the same skills--welding, pipe fitting, 
electronics--right over to working for our Naval Sea Systems 
Command, Naval Air Command, Space and Warfare Electronics 
Command.
    And so that is a very viable program and we actually 
recruit for that matter. We have hired job placement people. 
And you have got to give the sailors and kids the time off to 
do it. Or what they do is, they get out of the Navy because 
they work all the way to the end. And then go on unemployment 
to go find a job. So if you give them that time beforehand, 
then they can get that job. And that is what they want.
    Mr. Culberson. General Dunford, Admiral Greenert, I 
understand you all need to go, but we do have some other 
questions on--I certainly wanted to, if I could, get into with 
you, General Schwartz, Mr. Hale and General Odierno.
    We could allow you to go get a little lunch and visit--we 
won't be much longer, I don't believe. We just have a couple 
more questions. But I understand you do need to leave. And 
thank you very much for your service and for being here. To the 
both of you, thank you.
    Admiral Greenert. Thank you Chairman, and members of the 
committee.
    Mr. Bishop. Thank you, gentleman.

             AFGHAN MILCON PROGRAMS BEYOND FISCAL YEAR 2012

    Mr. Culberson. If I could--a couple other areas I wanted to 
ask about, probably, Mr. Hale--and certainly with the Air Force 
and the Army in particular.
    You know, we know that the department has designated two 
bases in Afghanistan--Bagram and Kandahar--as enduring--and 
other indications that the department and CENTCOM have, you 
know, longer-term expectations for these two locations that go 
beyond the immediate operations in Afghanistan. But, you know, 
the MILCON associated with those two bases was programmed in 
fiscal year 2011 and 2012.
    But in this year's submission, when the committee looks at 
the request for the fiscal year Defense Plan, particularly for 
the Army and the Air Force, there is no Afghanistan military 
construction program beyond fiscal year 2012.
    And, you know, we see that and then in conjunction with 
this--and I really do think the economist has characterized it 
correctly. It is very distressing to see the Obama 
administration essentially head for the exits attempting to 
pull out abruptly out of Afghanistan after all the sacrifice 
and effort that we have made there.
    Why is there no Afghan MILCON program beyond fiscal year 
2012? Perhaps start with you, Mr. Hale.
    Mr. Hale. You know, I am going to need some help here.
    What I am being told is that CENTCOM has not identified 
needs at the moment. We do program some MILCON money in the 
base budget for enduring locations. There is none in 2013. And 
the answer is, at the moment we don't think we need it.
    Mr. Culberson. Why?
    Mr. Hale. I think they have met their needs, and do not 
necessarily need MILCON every year. We are planning an enduring 
presence, but at least my understanding is our commanders don't 
think they need MILCON at this point.
    Mr. Culberson. We are planning an enduring presence in 
Afghanistan. What does that mean; for how long?
    Mr. Hale. That I can't tell you. I mean we will transition 
the military role to the Afghans, but we do anticipate some 
support roles there. And I can't tell you how long. Perhaps you 
can step in here?
    General Odierno. I would just say that we have not made any 
decisions on how long they would be there after 2014. But we do 
believe there is a potential that training and advising and 
other support functions that remain.
    But, Congressman, what I would say is, you know, the 
infrastructure that we have built in Afghanistan is quite 
robust. And we are going to reduce our presence there. And I 
think the thought process is that the infrastructure we have 
there will be good enough to support a much smaller footprint 
that would be there after 2014.
    Now, my guess is that Central Command will continue to take 
a look at this and submit requirements to us. But they have not 
submitted any requirements to us that we have not put in our 
budget. And so we don't have any requirements, to the best of 
my knowledge, to have any MILCON necessary.
    Mr. Culberson. So the absence of a request on behalf of the 
Army is that the facilities you have are adequate?
    General Odierno. I think what is going to happen is an 
assessment by CENTCOM that we get, and then we help them to 
fund that if they determine the facilities are inadequate. I 
think, as they are working through the reduction of forces this 
year, down to 68,000 by the end of September, and as they do 
further reductions, I think they will have to do some further 
reviews on, ``Is the infrastructure appropriate for what we 
will leave behind after 2014?''
    I would say that it will be a significantly smaller 
footprint than it is now. So my guess is, you know, they will 
have to see what is left and then make a determination if they 
need any more infrastructure, and whether we put that in the 
base or that is funded by OCO, that will be a decision that 
will be made later on.

              WITHDRAWAL FROM A COMBAT TO AN ENABLING ROLE

    Mr. Culberson. All right now I hear you say in 2014, and I 
know that the 2014 date was apparently agreed upon at the NATO 
summit in 2010, but circling back to what I mentioned earlier, 
I mean we are still trying to get our arms around--what, then 
is Secretary Panetta talking about when he announced on 
February 1, that he thinks that we are going to withdrawal from 
a combat to an enabling role in about 18 months, in 2013. What 
is up?
    General Odierno. Again, I would say it is similar to what 
we did in Iraq, Congressman.
    Over time, we slowly turned more and more responsibility 
over to Afghan Security Forces like we did Iraqi Security 
Forces. And so I think what he was talking about is he believes 
by the end of 2013, the Afghan capability will have more 
capability to allow them to take over responsibility for 
security. It might be the end of 2013. It might be a little bit 
later than that. That will be a determination made on the 
ground.
    Mr. Culberson. Based on their capability?
    General Odierno. Based on their capability. And then what 
we would be there to do is to continue to provide training, 
advising and support to that. And our own force protection.
    Mr. Culberson. Well obviously we are all distressed and 
upset to, you know, read--and heartbroken at the loss of 
American lives. I know all of us on the floor talk a great deal 
about. It appears that there is increasing instability and 
unreliability among those Afghan forces that are turning their 
weapons on Americans. So could you comment on that? And, of 
course, the president's apology, I find very distressing and 
very bad policy for----
    Mr. Culberson [continuing]. A president of the United 
States should never apologize for anything the United States 
does, ever. I personally don't think it helped in this 
situation. What is going on with the Afghan Security forces----
    General Odierno. Well, Congressman I can't speak 
specifically----
    Mr. Culberson [continuing]. Rioting over the----
    General Odierno [continuing]. To the incidents. What I 
would say is that there is significant vetting that goes on 
with these individuals. We continue to work with the Afghan 
government on the vetting processes of these individuals. You 
have certain people who intentionally have infiltrated the 
Afghan Army and Afghan Police Force. And it is very small 
numbers. But all it takes is one or two people with a weapon 
that can turn on U.S. and coalition forces. I would also add 
that we have some of our coalition partners suffer the same 
fate.
    So we have to be very vigilant in working with the Afghan 
Security Forces and the Afghan government in vetting and 
ensuring that we learn and continue to protect our soldiers, 
sailors and Marines that are over there. And we will continue 
to do that to the best of our ability.
    Mr. Culberson. You feel like it is very small numbers then?
    General Odierno. I do. And what we need to be careful 
about--and I know it is very difficult--and it is difficult for 
us--when we have somebody who is working hard, dedicating 
themselves to the mission in Afghanistan and somebody who they 
are helping comes behind and kills them in some way, it is a 
very difficult situation.
    And first, I would like to compliment the discipline of our 
soldiers, sailors and Marines on the ground in how they handle 
this.
    Mr. Culberson. Yes, sir.
    General Odierno. They handle it in an incredibly 
disciplined way, which makes me very proud every day to watch 
them and how they handle this.
    But, what we ought to be careful of is, you know, we have a 
very large Afghan Security Force and 99.9 percent of them are 
dedicated to providing security to the Afghan people. We have 
to be careful that we don't overreact to this, although it is a 
very serious----
    Mr. Culberson. Yes, sir.
    General Odierno [continuing]. Situation.

                     NATO FORCES PULLING OUT EARLY

    Mr. Culberson. Well, and that is encouraging to hear. There 
was a follow up I wanted to ask you on that. So the absence of 
a request for funding is no reflection on pulling out any time 
soon? Or it is just you really do feel that the facilities 
there are adequate?
    Oh, I know what I wanted to ask you, sir. I had heard a 
report--we had some discussion. I had heard reports that the 
NATO Security Forces were attempting to pull out earlier than 
planned. Is that correct?
    General Odierno. I would leave that to CENTCOM to answer. I 
believe everything I have read is that NATO continues to be a 
very strong partner. I think that will be reconfirmed in May 
when they have the summit in Chicago.
    And so I thank NATO partners who continue to move forward 
with us, hand-in-hand. I can't speak for individual countries 
and some decisions they make, but I would leave that both to 
the SACEUR or Admiral Stavridis and General Mattis.
    Mr. Culberson. But at this point we can tell our colleagues 
and our constituents, there is no foundation to the report 
Judge Carter mentioned that the private security forces are 
pulling out and there is no foundation yet to the report that 
NATO Security Forces are attempting----
    General Odierno. Yes, I have not seen a report that says we 
are pulling out civilian security contractors that are 
assisting us. I would defer the question to General Mattis and 
Admiral Stavridis on NATO forces, but I see the NATO Alliance 
strongly supporting and working with us as they promised 
through 2014. I think that will be reaffirmed when they come 
here in May.
    Mr. Culberson. All right, sir--the absence of an Air Force 
MILCON request for Afghanistan.
    Yes, Sir.
    General Schwartz. The reality is that the infrastructure 
that is currently in place is adequate for now. As we get 
better definition of what a follow on mission might entail, we 
certainly would revisit what that footprint looks like.
    I would like to mention one thing about the private 
security contractors. This might be something, sir, to interact 
with Foreign Affairs on; because part of what is happening is a 
requirement to certify with the Afghan government the private 
security entities.
    And some are achieving certification and some are not. And 
I am certain that that is what is involved in what you are 
hearing.
    Mr. Culberson. Yes. Thank you. Thank you very much.
    One or two others--I want to make sure to recognize my 
friend, Mr. Bishop from Georgia.
    Mr. Bishop. Thank you very much Mr. Chairman. I just want 
to express a little caution here. I don't think that we 
probably should use this as a platform to decide whether the 
president should or should not apologize.
    Apparently that was a serious mistake, that in diplomatic 
circles was felt was inappropriate and I don't think that our 
country should ever be so arrogant that if a mistake is made, 
that we can't appropriately address that by expressing an 
apology.

       AIR FORCE'S REDUCTION IN ITS MILITARY CONSTRUCTION BUDGET

    But I don't know that this is necessarily the platform for 
that. I was going to ask General Schwartz about the Air Force's 
reduction in its military construction budget.
    Obviously, the budget shows a great reduction of aircraft, 
either by retiring or relocation. And of course, in the last 
couple of years, you had a lot of requests for aircraft-hangar 
assets. Are there construction projects now--since you have a 
reduction in aircraft requests--that you are not necessarily in 
need of now? And does that speak to why your requests are 
lower?
    General Schwartz. That is certainly one of the reasons. And 
that is reflected in particular with those projects that were 
associated with the C-27 aircraft bed-down and also F-35 having 
slipped to the right. Also, we have indicated that it is early 
to need for some of those projects.
    And so without a doubt, the $442 million that is in the 
2013 proposal on the MILCON side is associated with that 
reality.
    Mr. Bishop. Thank you, sir.
    General Odierno, I would like to explore with you the 
drawdown impact of the readiness of our units and our reserve 
components. I am aware that the Army implemented the Army force 
generation model to rotate units in an efficient and 
predictable manner to meet the needs of the combatant 
commanders.
    But as we draw down our presence in the Middle East, can 
you tell us how the Army is going to continue to utilize the 
Army force generation model as an enduring strategy to maintain 
the proper readiness of the Army as a whole?
    I know that the reserve component units were utilized 
within the force generation model to support the war fight over 
the last decade. And the Department of Defense in 2008 directed 
the services to manage the reserve components as an operational 
force.
    What resourcing decisions has the Army made to comply with 
the directive? And presumably, the fact that you added a budget 
item to fund the additional reserve component training, based 
on that force generation model, rather than relying on the 
supplemental, is I guess partially the answer.
    But we are hearing that the Army just reallocated a 
substantial amount of the funding from the procurement account 
to the training account within the reserve component, which 
makes it sound like the reserve component units will be able to 
improve their training and their readiness, but it will come at 
the expense of equipment. And this will exacerbate the 
equipment shortfalls, the equipment modernization and the 
capability gaps of the reserve component in comparison to the 
active component.

    PAYING FOR TRAINING OF THE RESERVE COMPONENT AT THE EXPENSE OF 
                    EQUIPPING THE RESERVE COMPONENT

    What are your thoughts on this methodology to pay for the 
training of the reserve component at the expense of equipping 
the reserve component? Because there were some concerns that 
the reserve components have always been a stepchild, although 
they are being utilized fully. But in terms of training and 
equipment, they are always a stepchild.
    General Odierno. Thank you, Congressman.
    First off, we have looked at this very carefully. And, by 
the way, I want to make sure this is fully transparent and with 
the input of both the National Guard Bureau and the U.S. Army 
Reserves.
    But as we looked at what we wanted to try to achieve, the 
most important thing for us as we looked across the spectrum of 
how we have funded ourselves, we believe that the best thing 
was to fund the readiness issue so we could continue to ensure 
that the reserve component stays a part of the Army force 
generation process and maintains its training levels.
    Today, the Army Reserve is at about 87 percent equipping; 
the active component is about 86 percent equipping. At the end 
of fiscal year 2012, the reserve component will be at 91 
percent; the active component will be about 92 percent of full 
equipment on-hand.
    As we continue to come out and re-set the equipment that 
came out of Iraq, and as we continue to re-set the equipment 
coming out of Afghanistan, we believe that fully makes up for 
the procurement decrements that we have taken to ensure that 
the reserve component sustains at a very high level equivalent 
to the active component in its equipment----
    Mr. Bishop. Are you going to bring that equipment back? Are 
you going to bring that equipment back and give it to the 
reserves for training purposes?
    General Odierno. Both the active and reserves.
    So as we come out of Iraq, we put equipment through reset, 
which has been funded, and we appreciate that very much. They 
go through reset, and then it is redistributed across the Army 
in both the active and reserve component.
    As we come out of Afghanistan, and as we reduce the size of 
our force in Afghanistan, we are bringing equipment back out of 
Afghanistan that will be redistributed to our units in both the 
active and reserve components.
    Mr. Bishop. So you actually did a pretty thorough 
analysis----
    General Odierno. We did.
    Mr. Bishop [continuing]. Of the cost-benefit analysis of 
bringing that equipment back and resetting it or using the 
transfer to the Afghan--I mean to the Iraqi forces.
    General Odierno. Right.
    Mr. Bishop. So, you will leave some of it, you will bring 
back the other.
    General Odierno. Some was left. The only part that was left 
was equipment that was excess or----
    Mr. Bishop. Excess is whatever you designate is excess.
    General Odierno [continuing]. Or obsolete. And so 
everything else has been brought back and will be re-set. And 
the same thing will happen in Afghanistan as we go through 
this.
    Mr. Bishop. Well, that was a pretty expensive undertaking.
    General Odierno. Very much so, and we appreciate that it 
has been funded through the OCO process. And we need that 
funding to continue to re-set our equipment that has been 
there, and that is important for us.
    Mr. Bishop. Are you able to do any of the cost cutting in 
terms of dealing with your budget by having the re-set 
opportunities done across the services? For example, the Marine 
Corps has capabilities for----
    General Odierno. We do work with the Marine Corps and when 
we have equivalent equipment, we absolutely work together to 
reset that equipment, using a lot of our infrastructure that we 
have in our arsenals and depots, when we have common equipment. 
We absolutely do that.
    General Schwartz. A case in point, Congressman, on the 
helicopter side, we use Tooele Point and Corpus Christi, these 
are Army and Marine Corps depots, to help us with our 
helicopter reset.
    Mr. Bishop. Very good.
    Thank you, Mr. Chairman.
    And thank you, gentlemen.
    I think that concludes my questions.
    Mr. Culberson. Thank you.

                       FISCAL YEAR 2013 REQUESTS

    Let me have, if I could, one more following up on Mr. 
Bishop's questions to the Army, General Odierno, about your 
combat brigade teams. In the February 27th edition of Inside 
the Army--let me ask you, if I could, about your military and 
family housing budget for fiscal year 2013, which totals $2.5 
billion with additional funding for projects related to BRAC of 
$106 million. The fiscal year 2013 submission does not include 
a request for overseas contingency operations.
    If you would, talk to us, General, about your biggest 
challenges and whether or not the fiscal year 2013 request 
addresses all those and what is not addressed that we should be 
aware of to try to help you with, sir.
    General Odierno. What we have done in terms of contingency 
is, again, as I stated earlier, I think that we have met the 
requirements for right now in terms of our contingency 
requirements in Afghanistan. What we have done is we have 
deferred some of our MILCON projects in CONUS. Specifically, 
most of them are barracks projects and some other projects, 
because of the reduction of forces of the 80,000.
    Until we do an assessment of exactly where those are coming 
out, we wanted to defer barracks projects because we believe we 
will be able to utilize the investments that we have already 
made in many of our projects.
    So what we have done is we have looked very closely at our 
MILCON budget. Those that we deferred we think would be 
projects that could be affected by the reduction of 80,000 over 
the next 5 years. And as we go through that and get more 
fidelity, we will decide whether we have to add back in some of 
these MILCON projects to specific installations or not.
    Mr. Culberson. Also, in conclusion, I want to reinforce 
what I know Mr. Bishop asked you about earlier, and to 
compliment you on the work that you have done to re-equip 
Department of Defense schools. It is so important for families 
to be able to have that option if they are based in an area of 
the country that just doesn't have a good public school system 
there, and to encourage you please to--through your leadership 
as the chairman of the Air Force and the Army.

                            CHARTER SCHOOLS

    If you pushed a little bit, I think you can also encourage 
the creation of charter schools, if it is authorized under 
state law. It really just needs a little push from on your part 
to ensure that men and women who have kids and are based at one 
of your facilities not only have the option to go to a DoD 
school, but I hope you will also encourage the creation of more 
charter schools where state law permits it.
    General Schwartz. You are absolutely right, Chairman, and 
we have one at Lake Air Force Base, Arizona. We have one at 
Little Rock Air Force Base, Arkansas, and we have one here 
right in town over at Joint Base Andrews. And they are fully 
subscribed.
    And as you are aware, that includes youngsters from both 
on-base and off-base. It is a typical requirement. But our goal 
was to create thriving communities on our installations, and 
the key thing to creating a thriving community is the right 
kind of school, whether it is on or off-base.
    But charter has a place and we have got three of them.
    General Odierno. I would just say, you know, we have eight 
installations that have DoD schools in CONUS. We have 160 
installations that are projects that work with the local 
community to provide our education. And so it is important that 
we sustain our DOD schools at the appropriate levels where we 
still have those.
    But just as important--in fact, more important--is the 
relationship that we establish with our local communities in 
building new schools and making sure we have the right 
facilities on-post. And it does vary from community to 
community, but we watch this very carefully and it is one of 
our highest priorities. And we have worked with several 
organizations to ensure that between states, we have the same 
standards in the communities that support our Army 
installations and we will continue to do this.
    We currently do not have any charter schools and we are 
working towards this. We want to move forward with that if we 
can.
    Mr. Culberson. That was my impression, General--is that 
there were no charter schools----
    General Odierno. We do not have them.
    Mr. Culberson. Do you know why?
    General Odierno. I don't. I think it is really working with 
the state. You know, it is a state-local responsibility. So it 
is about us working with the state to get us some charter 
schools where we need them. And I think we have to be more 
aggressive in doing that. And we will work that.
    Mr. Culberson. I think there is an understanding and 
agreement that has to be signed into by states in order for 
credits to transfer, because obviously military families are 
mobile.
    General Odierno. Right.
    Mr. Culberson. I think a majority of them have already 
signed on----
    General Schwartz. Yes. Thirty-nine, if I am not mistaken--
--
    General Odierno. Yes. That is right.
    Mr. Culberson. I think it is 39----
    General Schwartz. Have signed on. And Wyoming is about to 
do so. And Congressman, if I may, I have talked to your 
governor personally on this issue in Georgia. Georgia is one of 
the states that hasn't signed on yet. And I know he has some 
reservations.
    It is something that is worth doing, because of the mobile 
population the Chairman addressed.
    Mr. Bishop. I had a conversation with the governor last 
week about that in connection with--I work with the 
Congressional Military Family Caucus. We are trying to get the 
reciprocal agreements in place so that there will be an easy 
transfer for military dependents when they go from one state to 
another.
    That is one of the components that we are working on. And 
of course we had that discussion with the governor just last 
week.
    General Schwartz. Well, he has heard from both of us then.

                            CHARTER SCHOOLS

    Mr. Culberson. Good. And I will help in any way I can on 
that, Sanford. I just want to make sure just to--because this 
is really important to all of us on the committee--to make sure 
that families have got that option both to the DoD school or a 
charter school.
    I mean, I have talked to families based at Andrews. And it 
would be a desperate situation for them. I mean, they would 
really be in trouble if they didn't have the----
    General Schwartz. Well, the interesting thing this--not to 
drag this out--but the----
    Mr. Bishop. That is important.
    General Schwartz. The interesting thing is that what really 
sort of brought this together was privatized housing in that 
the people who run the privatized housing projects recognize 
the wisdom of having good schools that serve the communities 
that they are trying to populate at 100 percent. It is a 
business issue for them.
    And so it is the privatized firms in Little Rock, and here 
at Joint Base Andrews that have donated substantial resources 
to get the charter school started. This is a win-win.
    Mr. Culberson. Sure.
    General Schwartz. A good school means their occupancy is 
100 percent, and it means that our parents are confident their 
kids are getting the----
    Mr. Culberson. Sure.
    General Schwartz [continuing]. Education they should.
    Mr. Culberson. Free markets work. The invisible hand of 
Adam Smith is certainly true. I just want to make certain also, 
and for the wrap--conclude on this that the--your base 
commanders, it is my understanding--and I just want to confirm 
this--your base commanders have the freedom, the flexibility, 
and the full authority to ask for the creation of a charter 
school on their base? They can do that on their own initiative, 
correct?
    General Odierno. They can. And I will verify that they can. 
I will use Fort Hood as an example. When I was the corps 
commander down at Fort Hood, we met on a quarterly basis with 
every superintendent that affected our school children.
    So we were very involved with the local community. And we 
can bring any issue to them that we thought was necessary to 
help our young children in order to get the best education 
possible; so that they have authorities to coordinate across 
the broad spectrum of issues----
    Mr. Culberson. Okay.
    General Odierno [continuing]. Regarding taking care of----
    Mr. Culberson. Well, it is a concern there is no charter 
schools near the Army base. So I want to bring it to your 
attention.
    General Odierno. We will take a look at that.
    Mr. Culberson. Zero in on it. And of course that is our 
responsibility here. I know Mr. Bishop and I--the entire 
subcommittee is, as all of us are in Congress--but particularly 
the subcommittee--committed to make sure that the men and 
women, the families in particular, don't have a worry in the 
world.
    We are going to make sure you all have everything that you 
need to ensure their peace of mind, your peace of mind so you 
can focus on your vital mission of protecting the United 
States, which you do so well.
    It is a real privilege to help you and we thank you deeply 
for your service to the nation.
    And Mr. Bishop if there are no further questions?
    Mr.Bishop. No further questions, just a comment.
    I am fully committed to the best possible education of our 
military dependents, not necessarily committed to charter 
schools but whatever the best vehicle for delivery that 
education is, whether it is a charter school or not. But we 
have a great defense education activity. I want to make sure 
that they have everything that they need so that our youngsters 
will get the education they need so that their parents will not 
have to worry about that while they are serving our country.
    Mr.Culberson. Thank you very much for your service to the 
nation and your appearance today.
    The hearing is adjourned.
    Thank you. 

    [GRAPHIC] [TIFF OMITTED] T5948A.060
    
    [GRAPHIC] [TIFF OMITTED] T5948A.061
    
    [GRAPHIC] [TIFF OMITTED] T5948A.062
    
    [GRAPHIC] [TIFF OMITTED] T5948A.063
    
    [GRAPHIC] [TIFF OMITTED] T5948A.064
    
    [GRAPHIC] [TIFF OMITTED] T5948A.065
    
    [GRAPHIC] [TIFF OMITTED] T5948A.066
    
    [GRAPHIC] [TIFF OMITTED] T5948A.067
    
    [GRAPHIC] [TIFF OMITTED] T5948A.068
    
    [GRAPHIC] [TIFF OMITTED] T5948A.069
    
    [GRAPHIC] [TIFF OMITTED] T5948A.070
    
    [GRAPHIC] [TIFF OMITTED] T5948A.071
    
    [GRAPHIC] [TIFF OMITTED] T5948A.072
    
    [GRAPHIC] [TIFF OMITTED] T5948A.073
    
    [GRAPHIC] [TIFF OMITTED] T5948A.074
    
    [GRAPHIC] [TIFF OMITTED] T5948A.075
    
    [GRAPHIC] [TIFF OMITTED] T5948A.076
    
    [GRAPHIC] [TIFF OMITTED] T5948A.077
    
    [GRAPHIC] [TIFF OMITTED] T5948A.078
    
    [GRAPHIC] [TIFF OMITTED] T5948A.079
    
    [GRAPHIC] [TIFF OMITTED] T5948A.080
    
    [GRAPHIC] [TIFF OMITTED] T5948A.081
    
    [GRAPHIC] [TIFF OMITTED] T5948A.082
    
    [GRAPHIC] [TIFF OMITTED] T5948A.083
    
    [GRAPHIC] [TIFF OMITTED] T5948A.084
    
    [GRAPHIC] [TIFF OMITTED] T5948A.085
    
    [GRAPHIC] [TIFF OMITTED] T5948A.086
    
    [GRAPHIC] [TIFF OMITTED] T5948A.087
    
    [GRAPHIC] [TIFF OMITTED] T5948A.088
    
    [GRAPHIC] [TIFF OMITTED] T5948A.089
    
    [GRAPHIC] [TIFF OMITTED] T5948A.090
    
    [GRAPHIC] [TIFF OMITTED] T5948A.091
    
    [GRAPHIC] [TIFF OMITTED] T5948A.092
    
    [GRAPHIC] [TIFF OMITTED] T5948A.093
    
    [GRAPHIC] [TIFF OMITTED] T5948A.094
    
    [GRAPHIC] [TIFF OMITTED] T5948A.095
    
    [GRAPHIC] [TIFF OMITTED] T5948A.096
    
    [GRAPHIC] [TIFF OMITTED] T5948A.097
    
    [GRAPHIC] [TIFF OMITTED] T5948A.098
    
    [GRAPHIC] [TIFF OMITTED] T5948A.099
    
    [GRAPHIC] [TIFF OMITTED] T5948A.100
    
    [GRAPHIC] [TIFF OMITTED] T5948A.101
    
    [GRAPHIC] [TIFF OMITTED] T5948A.102
    
    [GRAPHIC] [TIFF OMITTED] T5948A.103
    
    [GRAPHIC] [TIFF OMITTED] T5948A.104
    
    [GRAPHIC] [TIFF OMITTED] T5948A.105
    
    [GRAPHIC] [TIFF OMITTED] T5948A.106
    
    [GRAPHIC] [TIFF OMITTED] T5948A.107
    
    [GRAPHIC] [TIFF OMITTED] T5948A.108
    
    [GRAPHIC] [TIFF OMITTED] T5948A.109
    
    [GRAPHIC] [TIFF OMITTED] T5948A.110
    
    [GRAPHIC] [TIFF OMITTED] T5948A.111
    
    [GRAPHIC] [TIFF OMITTED] T5948A.112
    
    [GRAPHIC] [TIFF OMITTED] T5948A.113
    
    [GRAPHIC] [TIFF OMITTED] T5948A.114
    
    [GRAPHIC] [TIFF OMITTED] T5948A.115
    
    [GRAPHIC] [TIFF OMITTED] T5948A.116
    
    [GRAPHIC] [TIFF OMITTED] T5948A.117
    
    [GRAPHIC] [TIFF OMITTED] T5948A.118
    
    [GRAPHIC] [TIFF OMITTED] T5948A.119
    
    [GRAPHIC] [TIFF OMITTED] T5948A.120
    
    [GRAPHIC] [TIFF OMITTED] T5948A.121
    
    [GRAPHIC] [TIFF OMITTED] T5948A.122
    
    [GRAPHIC] [TIFF OMITTED] T5948A.123
    
    [GRAPHIC] [TIFF OMITTED] T5948A.124
    
    [GRAPHIC] [TIFF OMITTED] T5948A.125
    
    [GRAPHIC] [TIFF OMITTED] T5948A.126
    
    [GRAPHIC] [TIFF OMITTED] T5948A.127
    
    [GRAPHIC] [TIFF OMITTED] T5948A.128
    
    [GRAPHIC] [TIFF OMITTED] T5948A.129
    
    [GRAPHIC] [TIFF OMITTED] T5948A.130
    
    [GRAPHIC] [TIFF OMITTED] T5948A.131
    
    [GRAPHIC] [TIFF OMITTED] T5948A.132
    
    [GRAPHIC] [TIFF OMITTED] T5948A.133
    
    [GRAPHIC] [TIFF OMITTED] T5948A.134
    
    [GRAPHIC] [TIFF OMITTED] T5948A.135
    
    [GRAPHIC] [TIFF OMITTED] T5948A.136
    
    [GRAPHIC] [TIFF OMITTED] T5948A.137
    
    [GRAPHIC] [TIFF OMITTED] T5948A.138
    
    [GRAPHIC] [TIFF OMITTED] T5948A.139
    
    [GRAPHIC] [TIFF OMITTED] T5948A.140
    
    [GRAPHIC] [TIFF OMITTED] T5948A.141
    
    [GRAPHIC] [TIFF OMITTED] T5948A.142
    
    [GRAPHIC] [TIFF OMITTED] T5948A.143
    
    [GRAPHIC] [TIFF OMITTED] T5948A.144
    
    [GRAPHIC] [TIFF OMITTED] T5948A.145
    
    [GRAPHIC] [TIFF OMITTED] T5948A.146
    
    [GRAPHIC] [TIFF OMITTED] T5948A.147
    
    [GRAPHIC] [TIFF OMITTED] T5948A.148
    
    [GRAPHIC] [TIFF OMITTED] T5948A.149
    
    [GRAPHIC] [TIFF OMITTED] T5948A.150
    
    [GRAPHIC] [TIFF OMITTED] T5948A.151
    
    [GRAPHIC] [TIFF OMITTED] T5948A.152
    
    [GRAPHIC] [TIFF OMITTED] T5948A.153
    
    [GRAPHIC] [TIFF OMITTED] T5948A.154
    
    [GRAPHIC] [TIFF OMITTED] T5948A.155
    
    [GRAPHIC] [TIFF OMITTED] T5948A.156
    
    [GRAPHIC] [TIFF OMITTED] T5948A.157
    
    [GRAPHIC] [TIFF OMITTED] T5948A.158
    
    [GRAPHIC] [TIFF OMITTED] T5948A.159
    
    [GRAPHIC] [TIFF OMITTED] T5948A.160
    
    [GRAPHIC] [TIFF OMITTED] T5948A.161
    
    [GRAPHIC] [TIFF OMITTED] T5948A.162
    
    [GRAPHIC] [TIFF OMITTED] T5948A.163
    
    [GRAPHIC] [TIFF OMITTED] T5948A.164
    
    [GRAPHIC] [TIFF OMITTED] T5948A.165
    
    [GRAPHIC] [TIFF OMITTED] T5948A.166
    
    [GRAPHIC] [TIFF OMITTED] T5948A.167
    
    [GRAPHIC] [TIFF OMITTED] T5948A.168
    
    [GRAPHIC] [TIFF OMITTED] T5948A.169
    
    [GRAPHIC] [TIFF OMITTED] T5948A.170
    
    [GRAPHIC] [TIFF OMITTED] T5948A.171
    
    [GRAPHIC] [TIFF OMITTED] T5948A.172
    
    [GRAPHIC] [TIFF OMITTED] T5948A.173
    
    [GRAPHIC] [TIFF OMITTED] T5948A.174
    
    [GRAPHIC] [TIFF OMITTED] T5948A.175
    
    [GRAPHIC] [TIFF OMITTED] T5948A.176
    
    [GRAPHIC] [TIFF OMITTED] T5948A.177
    
    [GRAPHIC] [TIFF OMITTED] T5948A.178
    
    [GRAPHIC] [TIFF OMITTED] T5948A.179
    
    [GRAPHIC] [TIFF OMITTED] T5948A.180
    
    [GRAPHIC] [TIFF OMITTED] T5948A.181
    
    [GRAPHIC] [TIFF OMITTED] T5948A.182
    
    [GRAPHIC] [TIFF OMITTED] T5948A.183
    
    [GRAPHIC] [TIFF OMITTED] T5948A.184
    
    [GRAPHIC] [TIFF OMITTED] T5948A.185
    
    [GRAPHIC] [TIFF OMITTED] T5948A.186
    
    [GRAPHIC] [TIFF OMITTED] T5948A.187
    
    [GRAPHIC] [TIFF OMITTED] T5948A.188
    
    [GRAPHIC] [TIFF OMITTED] T5948A.189
    
    [GRAPHIC] [TIFF OMITTED] T5948A.190
    
    [GRAPHIC] [TIFF OMITTED] T5948A.191
    
    [GRAPHIC] [TIFF OMITTED] T5948A.192
    
    [GRAPHIC] [TIFF OMITTED] T5948A.193
    
    [GRAPHIC] [TIFF OMITTED] T5948A.194
    
    [GRAPHIC] [TIFF OMITTED] T5948A.195
    
    [GRAPHIC] [TIFF OMITTED] T5948A.196
    
    [GRAPHIC] [TIFF OMITTED] T5948A.197
    
    [GRAPHIC] [TIFF OMITTED] T5948A.198
    
    [GRAPHIC] [TIFF OMITTED] T5948A.199
    
    [GRAPHIC] [TIFF OMITTED] T5948A.200
    
    [GRAPHIC] [TIFF OMITTED] T5948A.201
    
    [GRAPHIC] [TIFF OMITTED] T5948A.202
    
    [GRAPHIC] [TIFF OMITTED] T5948A.203
    
    [GRAPHIC] [TIFF OMITTED] T5948A.204
    
    [GRAPHIC] [TIFF OMITTED] T5948A.205
    
    [GRAPHIC] [TIFF OMITTED] T5948A.206
    
    [GRAPHIC] [TIFF OMITTED] T5948A.207
    
    [GRAPHIC] [TIFF OMITTED] T5948A.208
    
    [GRAPHIC] [TIFF OMITTED] T5948A.209
    
    [GRAPHIC] [TIFF OMITTED] T5948A.210
    
    [GRAPHIC] [TIFF OMITTED] T5948A.211
    
    [GRAPHIC] [TIFF OMITTED] T5948A.212
    
    [GRAPHIC] [TIFF OMITTED] T5948A.213
    
    [GRAPHIC] [TIFF OMITTED] T5948A.214
    
    [GRAPHIC] [TIFF OMITTED] T5948A.215
    
    [GRAPHIC] [TIFF OMITTED] T5948A.216
    
     [GRAPHIC] [TIFF OMITTED] T5948A.217
    
     [GRAPHIC] [TIFF OMITTED] T5948A.218
    
     [GRAPHIC] [TIFF OMITTED] T5948A.219
    
     [GRAPHIC] [TIFF OMITTED] T5948A.220
    
     [GRAPHIC] [TIFF OMITTED] T5948A.221
    
     [GRAPHIC] [TIFF OMITTED] T5948A.222
    
     [GRAPHIC] [TIFF OMITTED] T5948A.223
    
     [GRAPHIC] [TIFF OMITTED] T5948A.224
    
     [GRAPHIC] [TIFF OMITTED] T5948A.225
    
     [GRAPHIC] [TIFF OMITTED] T5948A.226
    
     [GRAPHIC] [TIFF OMITTED] T5948A.227
    
     [GRAPHIC] [TIFF OMITTED] T5948A.228
    
     [GRAPHIC] [TIFF OMITTED] T5948A.229
    
     [GRAPHIC] [TIFF OMITTED] T5948A.230
    
     [GRAPHIC] [TIFF OMITTED] T5948A.231
    
     [GRAPHIC] [TIFF OMITTED] T5948A.232
    
     [GRAPHIC] [TIFF OMITTED] T5948A.233
    
     [GRAPHIC] [TIFF OMITTED] T5948A.234
    
     [GRAPHIC] [TIFF OMITTED] T5948A.235
    
     [GRAPHIC] [TIFF OMITTED] T5948A.236
    
     [GRAPHIC] [TIFF OMITTED] T5948A.237
    
     [GRAPHIC] [TIFF OMITTED] T5948A.238
    
     [GRAPHIC] [TIFF OMITTED] T5948A.239
    
     [GRAPHIC] [TIFF OMITTED] T5948A.240
    
     [GRAPHIC] [TIFF OMITTED] T5948A.241
    
     [GRAPHIC] [TIFF OMITTED] T5948A.242
    
     [GRAPHIC] [TIFF OMITTED] T5948A.243
    
     [GRAPHIC] [TIFF OMITTED] T5948A.244
    
     [GRAPHIC] [TIFF OMITTED] T5948A.245
    
     [GRAPHIC] [TIFF OMITTED] T5948A.246
    
     [GRAPHIC] [TIFF OMITTED] T5948A.247
    
     [GRAPHIC] [TIFF OMITTED] T5948A.248
    
     [GRAPHIC] [TIFF OMITTED] T5948A.249
    
     [GRAPHIC] [TIFF OMITTED] T5948A.250
    
     [GRAPHIC] [TIFF OMITTED] T5948A.251
    
     [GRAPHIC] [TIFF OMITTED] T5948A.252
    
     [GRAPHIC] [TIFF OMITTED] T5948A.253
    
     [GRAPHIC] [TIFF OMITTED] T5948A.254
    
     [GRAPHIC] [TIFF OMITTED] T5948A.255
    
     [GRAPHIC] [TIFF OMITTED] T5948A.256
    
     [GRAPHIC] [TIFF OMITTED] T5948A.257
    
     [GRAPHIC] [TIFF OMITTED] T5948A.258
    
     [GRAPHIC] [TIFF OMITTED] T5948A.259
    
     [GRAPHIC] [TIFF OMITTED] T5948A.260
    
     [GRAPHIC] [TIFF OMITTED] T5948A.261
    
     [GRAPHIC] [TIFF OMITTED] T5948A.262
    
     [GRAPHIC] [TIFF OMITTED] T5948A.263
    
     [GRAPHIC] [TIFF OMITTED] T5948A.264
    
     [GRAPHIC] [TIFF OMITTED] T5948A.265
    
     [GRAPHIC] [TIFF OMITTED] T5948A.266
    
     [GRAPHIC] [TIFF OMITTED] T5948A.267
    
     [GRAPHIC] [TIFF OMITTED] T5948A.268
    
     [GRAPHIC] [TIFF OMITTED] T5948A.269
    
     [GRAPHIC] [TIFF OMITTED] T5948A.270
    
     [GRAPHIC] [TIFF OMITTED] T5948A.271
    
     [GRAPHIC] [TIFF OMITTED] T5948A.272
    
     [GRAPHIC] [TIFF OMITTED] T5948A.273
    
     [GRAPHIC] [TIFF OMITTED] T5948A.274
    
     [GRAPHIC] [TIFF OMITTED] T5948A.275
    
     [GRAPHIC] [TIFF OMITTED] T5948A.276
    
     [GRAPHIC] [TIFF OMITTED] T5948A.277
    
     [GRAPHIC] [TIFF OMITTED] T5948A.278
    
     [GRAPHIC] [TIFF OMITTED] T5948A.279
    
     [GRAPHIC] [TIFF OMITTED] T5948A.280
    
     [GRAPHIC] [TIFF OMITTED] T5948A.281
    
     [GRAPHIC] [TIFF OMITTED] T5948A.282
    
     [GRAPHIC] [TIFF OMITTED] T5948A.283
    
     [GRAPHIC] [TIFF OMITTED] T5948A.284
    
     [GRAPHIC] [TIFF OMITTED] T5948A.285
    
     [GRAPHIC] [TIFF OMITTED] T5948A.286
    
     [GRAPHIC] [TIFF OMITTED] T5948A.287
    
     [GRAPHIC] [TIFF OMITTED] T5948A.288
    
     [GRAPHIC] [TIFF OMITTED] T5948A.289
    
     [GRAPHIC] [TIFF OMITTED] T5948A.290
    
     [GRAPHIC] [TIFF OMITTED] T5948A.291
    
     [GRAPHIC] [TIFF OMITTED] T5948A.292
    
     [GRAPHIC] [TIFF OMITTED] T5948A.293
    
     [GRAPHIC] [TIFF OMITTED] T5948A.294
    
     [GRAPHIC] [TIFF OMITTED] T5948A.295
    
     [GRAPHIC] [TIFF OMITTED] T5948A.296
    
     [GRAPHIC] [TIFF OMITTED] T5948A.297
    
     [GRAPHIC] [TIFF OMITTED] T5948A.298
    
     [GRAPHIC] [TIFF OMITTED] T5948A.299
    
     [GRAPHIC] [TIFF OMITTED] T5948A.300
    
     [GRAPHIC] [TIFF OMITTED] T5948A.301
    
     [GRAPHIC] [TIFF OMITTED] T5948A.302
    
     [GRAPHIC] [TIFF OMITTED] T5948A.303
    
     [GRAPHIC] [TIFF OMITTED] T5948A.304
    
     [GRAPHIC] [TIFF OMITTED] T5948A.305
    
     [GRAPHIC] [TIFF OMITTED] T5948A.306
    
     [GRAPHIC] [TIFF OMITTED] T5948A.307
    
     [GRAPHIC] [TIFF OMITTED] T5948A.308
    
     [GRAPHIC] [TIFF OMITTED] T5948A.309
    
     [GRAPHIC] [TIFF OMITTED] T5948A.310
    
     [GRAPHIC] [TIFF OMITTED] T5948A.311
    
     [GRAPHIC] [TIFF OMITTED] T5948A.312
    
     [GRAPHIC] [TIFF OMITTED] T5948A.313
    
     [GRAPHIC] [TIFF OMITTED] T5948A.314
    
     [GRAPHIC] [TIFF OMITTED] T5948A.315
    
     [GRAPHIC] [TIFF OMITTED] T5948A.316
    
     [GRAPHIC] [TIFF OMITTED] T5948A.317
    
     [GRAPHIC] [TIFF OMITTED] T5948A.318
    
     [GRAPHIC] [TIFF OMITTED] T5948A.319
    
     [GRAPHIC] [TIFF OMITTED] T5948A.320
    
     [GRAPHIC] [TIFF OMITTED] T5948A.321
    
     [GRAPHIC] [TIFF OMITTED] T5948A.322
    
     [GRAPHIC] [TIFF OMITTED] T5948A.323
    
     [GRAPHIC] [TIFF OMITTED] T5948A.324
    
     [GRAPHIC] [TIFF OMITTED] T5948A.325
    
     [GRAPHIC] [TIFF OMITTED] T5948A.326
    
     [GRAPHIC] [TIFF OMITTED] T5948A.327
    
     [GRAPHIC] [TIFF OMITTED] T5948A.328
    
     [GRAPHIC] [TIFF OMITTED] T5948A.329
    
     [GRAPHIC] [TIFF OMITTED] T5948A.330
    
     [GRAPHIC] [TIFF OMITTED] T5948A.331
    
     [GRAPHIC] [TIFF OMITTED] T5948A.332
    
     [GRAPHIC] [TIFF OMITTED] T5948A.333
    
     [GRAPHIC] [TIFF OMITTED] T5948A.334
    
     [GRAPHIC] [TIFF OMITTED] T5948A.335
    
     [GRAPHIC] [TIFF OMITTED] T5948A.336
    
     [GRAPHIC] [TIFF OMITTED] T5948A.337
    
     [GRAPHIC] [TIFF OMITTED] T5948A.338
    
     [GRAPHIC] [TIFF OMITTED] T5948A.339
    
     [GRAPHIC] [TIFF OMITTED] T5948A.340
    
     [GRAPHIC] [TIFF OMITTED] T5948A.341
    
     [GRAPHIC] [TIFF OMITTED] T5948A.342
    
     [GRAPHIC] [TIFF OMITTED] T5948A.343
    
     [GRAPHIC] [TIFF OMITTED] T5948A.344
    
     [GRAPHIC] [TIFF OMITTED] T5948A.345
    
     [GRAPHIC] [TIFF OMITTED] T5948A.346
    
     [GRAPHIC] [TIFF OMITTED] T5948A.347
    
     [GRAPHIC] [TIFF OMITTED] T5948A.348
    
     [GRAPHIC] [TIFF OMITTED] T5948A.349
    
     [GRAPHIC] [TIFF OMITTED] T5948A.350
    
     [GRAPHIC] [TIFF OMITTED] T5948A.351
    
     [GRAPHIC] [TIFF OMITTED] T5948A.352
    
     [GRAPHIC] [TIFF OMITTED] T5948A.353
    
     [GRAPHIC] [TIFF OMITTED] T5948A.354
    
     [GRAPHIC] [TIFF OMITTED] T5948A.355
    
     [GRAPHIC] [TIFF OMITTED] T5948A.356
    
     [GRAPHIC] [TIFF OMITTED] T5948A.357
    
     [GRAPHIC] [TIFF OMITTED] T5948A.358
    
     [GRAPHIC] [TIFF OMITTED] T5948A.359
    
     [GRAPHIC] [TIFF OMITTED] T5948A.360
    
     [GRAPHIC] [TIFF OMITTED] T5948A.361
    
     [GRAPHIC] [TIFF OMITTED] T5948A.362
    
     [GRAPHIC] [TIFF OMITTED] T5948A.363
    
     [GRAPHIC] [TIFF OMITTED] T5948A.364
    
     [GRAPHIC] [TIFF OMITTED] T5948A.365
    
     [GRAPHIC] [TIFF OMITTED] T5948A.366
    
     [GRAPHIC] [TIFF OMITTED] T5948A.367
    
     [GRAPHIC] [TIFF OMITTED] T5948A.368
    
     [GRAPHIC] [TIFF OMITTED] T5948A.369
    
     [GRAPHIC] [TIFF OMITTED] T5948A.370
    
     [GRAPHIC] [TIFF OMITTED] T5948A.371
    
     [GRAPHIC] [TIFF OMITTED] T5948A.372
    
     [GRAPHIC] [TIFF OMITTED] T5948A.373
    
     [GRAPHIC] [TIFF OMITTED] T5948A.374
    
     [GRAPHIC] [TIFF OMITTED] T5948A.375
    
     [GRAPHIC] [TIFF OMITTED] T5948A.376
    
     [GRAPHIC] [TIFF OMITTED] T5948A.377
    
     [GRAPHIC] [TIFF OMITTED] T5948A.378
    
     [GRAPHIC] [TIFF OMITTED] T5948A.379
    
     [GRAPHIC] [TIFF OMITTED] T5948A.380
    
     [GRAPHIC] [TIFF OMITTED] T5948A.381
    
     [GRAPHIC] [TIFF OMITTED] T5948A.382
    
     [GRAPHIC] [TIFF OMITTED] T5948A.383
    
     [GRAPHIC] [TIFF OMITTED] T5948A.384
    
     [GRAPHIC] [TIFF OMITTED] T5948A.385
    
     [GRAPHIC] [TIFF OMITTED] T5948A.386
    
     [GRAPHIC] [TIFF OMITTED] T5948A.387
    
     [GRAPHIC] [TIFF OMITTED] T5948A.388
    
     [GRAPHIC] [TIFF OMITTED] T5948A.389
    
     [GRAPHIC] [TIFF OMITTED] T5948A.390
    
     [GRAPHIC] [TIFF OMITTED] T5948A.391
    
     [GRAPHIC] [TIFF OMITTED] T5948A.392
    
     [GRAPHIC] [TIFF OMITTED] T5948A.393
    
     [GRAPHIC] [TIFF OMITTED] T5948A.394
    
     [GRAPHIC] [TIFF OMITTED] T5948A.395
    
     [GRAPHIC] [TIFF OMITTED] T5948A.396
    
     [GRAPHIC] [TIFF OMITTED] T5948A.397
    
     [GRAPHIC] [TIFF OMITTED] T5948A.398
    
     [GRAPHIC] [TIFF OMITTED] T5948A.399
    
     [GRAPHIC] [TIFF OMITTED] T5948A.400
    
     [GRAPHIC] [TIFF OMITTED] T5948A.401
    
     [GRAPHIC] [TIFF OMITTED] T5948A.402
    
     [GRAPHIC] [TIFF OMITTED] T5948A.403
    
     [GRAPHIC] [TIFF OMITTED] T5948A.404
    
     [GRAPHIC] [TIFF OMITTED] T5948A.405
    
     [GRAPHIC] [TIFF OMITTED] T5948A.406
    
     [GRAPHIC] [TIFF OMITTED] T5948A.407
    
     [GRAPHIC] [TIFF OMITTED] T5948A.408
    
     [GRAPHIC] [TIFF OMITTED] T5948A.409
    
     [GRAPHIC] [TIFF OMITTED] T5948A.410
    
     [GRAPHIC] [TIFF OMITTED] T5948A.411
    
     [GRAPHIC] [TIFF OMITTED] T5948A.412
    
     [GRAPHIC] [TIFF OMITTED] T5948A.413
    
     [GRAPHIC] [TIFF OMITTED] T5948A.414
    
     [GRAPHIC] [TIFF OMITTED] T5948A.415
    
     [GRAPHIC] [TIFF OMITTED] T5948A.416
    
     [GRAPHIC] [TIFF OMITTED] T5948A.417
    
     [GRAPHIC] [TIFF OMITTED] T5948A.418
    
     [GRAPHIC] [TIFF OMITTED] T5948A.419
    
     [GRAPHIC] [TIFF OMITTED] T5948A.420
    
     [GRAPHIC] [TIFF OMITTED] T5948A.421
    
     [GRAPHIC] [TIFF OMITTED] T5948A.422
    
     [GRAPHIC] [TIFF OMITTED] T5948A.423
    
     [GRAPHIC] [TIFF OMITTED] T5948A.424
    
     [GRAPHIC] [TIFF OMITTED] T5948A.425
    
     [GRAPHIC] [TIFF OMITTED] T5948A.426
    
     [GRAPHIC] [TIFF OMITTED] T5948A.427
    
     [GRAPHIC] [TIFF OMITTED] T5948A.428
    
     [GRAPHIC] [TIFF OMITTED] T5948A.429
    
     [GRAPHIC] [TIFF OMITTED] T5948A.430
    
     [GRAPHIC] [TIFF OMITTED] T5948A.431
    
     [GRAPHIC] [TIFF OMITTED] T5948A.432
    
     [GRAPHIC] [TIFF OMITTED] T5948A.433
    
     [GRAPHIC] [TIFF OMITTED] T5948A.434
    
     [GRAPHIC] [TIFF OMITTED] T5948A.435
    
     [GRAPHIC] [TIFF OMITTED] T5948A.436
    
     [GRAPHIC] [TIFF OMITTED] T5948A.437
    
     [GRAPHIC] [TIFF OMITTED] T5948A.438
    
     [GRAPHIC] [TIFF OMITTED] T5948A.439
    
     [GRAPHIC] [TIFF OMITTED] T5948A.440
    
     [GRAPHIC] [TIFF OMITTED] T5948A.441
    
     [GRAPHIC] [TIFF OMITTED] T5948A.442
    
     [GRAPHIC] [TIFF OMITTED] T5948A.443
    
     [GRAPHIC] [TIFF OMITTED] T5948A.444
    
     [GRAPHIC] [TIFF OMITTED] T5948A.445
    
     [GRAPHIC] [TIFF OMITTED] T5948A.446
    
     [GRAPHIC] [TIFF OMITTED] T5948A.447
    
     [GRAPHIC] [TIFF OMITTED] T5948A.448
    
     [GRAPHIC] [TIFF OMITTED] T5948A.449
    
     [GRAPHIC] [TIFF OMITTED] T5948A.450
    
     [GRAPHIC] [TIFF OMITTED] T5948A.451
    
     [GRAPHIC] [TIFF OMITTED] T5948A.452
    
     [GRAPHIC] [TIFF OMITTED] T5948A.453
    
     [GRAPHIC] [TIFF OMITTED] T5948A.454
    
     [GRAPHIC] [TIFF OMITTED] T5948A.455
    
     [GRAPHIC] [TIFF OMITTED] T5948A.456
    
     [GRAPHIC] [TIFF OMITTED] T5948A.457
    
     [GRAPHIC] [TIFF OMITTED] T5948A.458
    
     [GRAPHIC] [TIFF OMITTED] T5948A.459
    
     [GRAPHIC] [TIFF OMITTED] T5948A.460
    
     [GRAPHIC] [TIFF OMITTED] T5948A.461
    
     [GRAPHIC] [TIFF OMITTED] T5948A.462
    
     [GRAPHIC] [TIFF OMITTED] T5948A.463
    
     [GRAPHIC] [TIFF OMITTED] T5948A.464
    
     [GRAPHIC] [TIFF OMITTED] T5948A.465
    
     [GRAPHIC] [TIFF OMITTED] T5948A.466
    
     [GRAPHIC] [TIFF OMITTED] T5948A.467
    
     [GRAPHIC] [TIFF OMITTED] T5948A.468
    
     [GRAPHIC] [TIFF OMITTED] T5948A.469
    
     [GRAPHIC] [TIFF OMITTED] T5948A.470
    
     [GRAPHIC] [TIFF OMITTED] T5948A.471
    
     [GRAPHIC] [TIFF OMITTED] T5948A.472
    
     [GRAPHIC] [TIFF OMITTED] T5948A.473
    
     [GRAPHIC] [TIFF OMITTED] T5948A.474
    
     [GRAPHIC] [TIFF OMITTED] T5948A.475
    
     [GRAPHIC] [TIFF OMITTED] T5948A.476
    
     [GRAPHIC] [TIFF OMITTED] T5948A.477
    
     [GRAPHIC] [TIFF OMITTED] T5948A.478
    
     [GRAPHIC] [TIFF OMITTED] T5948A.479
    
     [GRAPHIC] [TIFF OMITTED] T5948A.480
    
     [GRAPHIC] [TIFF OMITTED] T5948A.481
    
     [GRAPHIC] [TIFF OMITTED] T5948A.482
    
     [GRAPHIC] [TIFF OMITTED] T5948A.483
    
     [GRAPHIC] [TIFF OMITTED] T5948A.484
    
     [GRAPHIC] [TIFF OMITTED] T5948A.485
    
     [GRAPHIC] [TIFF OMITTED] T5948A.486
    
     [GRAPHIC] [TIFF OMITTED] T5948A.487
    
     [GRAPHIC] [TIFF OMITTED] T5948A.488
    
     [GRAPHIC] [TIFF OMITTED] T5948A.489
    
     [GRAPHIC] [TIFF OMITTED] T5948A.490
    
     [GRAPHIC] [TIFF OMITTED] T5948A.491
    
     [GRAPHIC] [TIFF OMITTED] T5948A.492
    
     [GRAPHIC] [TIFF OMITTED] T5948A.493
    
     [GRAPHIC] [TIFF OMITTED] T5948A.494
    
     [GRAPHIC] [TIFF OMITTED] T5948A.495
    
     [GRAPHIC] [TIFF OMITTED] T5948A.496
    
     [GRAPHIC] [TIFF OMITTED] T5948A.497
    
     [GRAPHIC] [TIFF OMITTED] T5948A.498
    
     [GRAPHIC] [TIFF OMITTED] T5948A.499
    
     [GRAPHIC] [TIFF OMITTED] T5948A.500
    
     [GRAPHIC] [TIFF OMITTED] T5948A.501
    
     [GRAPHIC] [TIFF OMITTED] T5948A.502
    
     [GRAPHIC] [TIFF OMITTED] T5948A.503
    
     [GRAPHIC] [TIFF OMITTED] T5948A.504
    
     [GRAPHIC] [TIFF OMITTED] T5948A.505
    
     [GRAPHIC] [TIFF OMITTED] T5948A.506
    
     [GRAPHIC] [TIFF OMITTED] T5948A.507
    
     [GRAPHIC] [TIFF OMITTED] T5948A.508
    
     [GRAPHIC] [TIFF OMITTED] T5948A.509
    
     [GRAPHIC] [TIFF OMITTED] T5948A.510
    
     [GRAPHIC] [TIFF OMITTED] T5948A.511
    
     [GRAPHIC] [TIFF OMITTED] T5948A.512
    
     [GRAPHIC] [TIFF OMITTED] T5948A.513
    
     [GRAPHIC] [TIFF OMITTED] T5948A.514
    
     [GRAPHIC] [TIFF OMITTED] T5948A.515
    
     [GRAPHIC] [TIFF OMITTED] T5948A.516
    
     [GRAPHIC] [TIFF OMITTED] T5948A.517
    
     [GRAPHIC] [TIFF OMITTED] T5948A.518
    
     [GRAPHIC] [TIFF OMITTED] T5948A.519
    
     [GRAPHIC] [TIFF OMITTED] T5948A.520
    
     [GRAPHIC] [TIFF OMITTED] T5948A.521
    
     [GRAPHIC] [TIFF OMITTED] T5948A.522
    
     [GRAPHIC] [TIFF OMITTED] T5948A.523
    
     [GRAPHIC] [TIFF OMITTED] T5948A.524
    
     [GRAPHIC] [TIFF OMITTED] T5948A.525
    
     [GRAPHIC] [TIFF OMITTED] T5948A.526
    
     [GRAPHIC] [TIFF OMITTED] T5948A.527
    
     [GRAPHIC] [TIFF OMITTED] T5948A.528
    
     [GRAPHIC] [TIFF OMITTED] T5948A.529
    
     [GRAPHIC] [TIFF OMITTED] T5948A.530
    
     [GRAPHIC] [TIFF OMITTED] T5948A.531
    
     [GRAPHIC] [TIFF OMITTED] T5948A.532
    
     [GRAPHIC] [TIFF OMITTED] T5948A.533
    
     [GRAPHIC] [TIFF OMITTED] T5948A.534
    
     [GRAPHIC] [TIFF OMITTED] T5948A.535
    
     [GRAPHIC] [TIFF OMITTED] T5948A.536
    
     [GRAPHIC] [TIFF OMITTED] T5948A.537
    
     [GRAPHIC] [TIFF OMITTED] T5948A.538
    
     [GRAPHIC] [TIFF OMITTED] T5948A.539
    
     [GRAPHIC] [TIFF OMITTED] T5948A.540
    
     [GRAPHIC] [TIFF OMITTED] T5948A.541
    
     [GRAPHIC] [TIFF OMITTED] T5948A.542
    
     [GRAPHIC] [TIFF OMITTED] T5948A.543
    
     [GRAPHIC] [TIFF OMITTED] T5948A.544
    
     [GRAPHIC] [TIFF OMITTED] T5948A.545
    
     [GRAPHIC] [TIFF OMITTED] T5948A.546
    
     [GRAPHIC] [TIFF OMITTED] T5948A.547
    
     [GRAPHIC] [TIFF OMITTED] T5948A.548
    
     [GRAPHIC] [TIFF OMITTED] T5948A.549
    
     [GRAPHIC] [TIFF OMITTED] T5948A.550
    
     [GRAPHIC] [TIFF OMITTED] T5948A.551
    
     [GRAPHIC] [TIFF OMITTED] T5948A.552
    
     [GRAPHIC] [TIFF OMITTED] T5948A.553
    
     [GRAPHIC] [TIFF OMITTED] T5948A.554
    
     [GRAPHIC] [TIFF OMITTED] T5948A.555
    
     [GRAPHIC] [TIFF OMITTED] T5948A.556
    
     [GRAPHIC] [TIFF OMITTED] T5948A.557
    
     [GRAPHIC] [TIFF OMITTED] T5948A.558
    
     [GRAPHIC] [TIFF OMITTED] T5948A.559
    
     [GRAPHIC] [TIFF OMITTED] T5948A.560
    
     [GRAPHIC] [TIFF OMITTED] T5948A.561
    
     [GRAPHIC] [TIFF OMITTED] T5948A.562
    
     [GRAPHIC] [TIFF OMITTED] T5948A.563
    
     [GRAPHIC] [TIFF OMITTED] T5948A.564
    
     [GRAPHIC] [TIFF OMITTED] T5948A.565
    
     [GRAPHIC] [TIFF OMITTED] T5948A.566
    
     [GRAPHIC] [TIFF OMITTED] T5948A.567
    
     [GRAPHIC] [TIFF OMITTED] T5948A.568
    
     [GRAPHIC] [TIFF OMITTED] T5948A.569
    
     [GRAPHIC] [TIFF OMITTED] T5948A.570
    
     [GRAPHIC] [TIFF OMITTED] T5948A.571
    
     [GRAPHIC] [TIFF OMITTED] T5948A.572
    
     [GRAPHIC] [TIFF OMITTED] T5948A.573
    
     [GRAPHIC] [TIFF OMITTED] T5948A.574
    
     [GRAPHIC] [TIFF OMITTED] T5948A.575
    
     [GRAPHIC] [TIFF OMITTED] T5948A.576
    
     [GRAPHIC] [TIFF OMITTED] T5948A.577
    
     [GRAPHIC] [TIFF OMITTED] T5948A.578
    
     [GRAPHIC] [TIFF OMITTED] T5948A.579
    
     [GRAPHIC] [TIFF OMITTED] T5948A.580
    
     [GRAPHIC] [TIFF OMITTED] T5948A.581
    
     [GRAPHIC] [TIFF OMITTED] T5948A.582
    
     [GRAPHIC] [TIFF OMITTED] T5948A.583
    
     [GRAPHIC] [TIFF OMITTED] T5948A.584
    
     [GRAPHIC] [TIFF OMITTED] T5948A.585
    
     [GRAPHIC] [TIFF OMITTED] T5948A.586
    
     [GRAPHIC] [TIFF OMITTED] T5948A.587
    
     [GRAPHIC] [TIFF OMITTED] T5948A.588
    
     [GRAPHIC] [TIFF OMITTED] T5948A.589
    
     [GRAPHIC] [TIFF OMITTED] T5948A.590
    
     [GRAPHIC] [TIFF OMITTED] T5948A.591
    
     [GRAPHIC] [TIFF OMITTED] T5948A.592
    
     [GRAPHIC] [TIFF OMITTED] T5948A.593
    
     [GRAPHIC] [TIFF OMITTED] T5948A.594
    
     [GRAPHIC] [TIFF OMITTED] T5948A.595
    
     [GRAPHIC] [TIFF OMITTED] T5948A.596
    
     [GRAPHIC] [TIFF OMITTED] T5948A.597
    
     [GRAPHIC] [TIFF OMITTED] T5948A.598
    
     [GRAPHIC] [TIFF OMITTED] T5948A.599
    
     [GRAPHIC] [TIFF OMITTED] T5948A.600
    
     [GRAPHIC] [TIFF OMITTED] T5948A.601
    
     [GRAPHIC] [TIFF OMITTED] T5948A.602
    
     [GRAPHIC] [TIFF OMITTED] T5948A.603
    
     [GRAPHIC] [TIFF OMITTED] T5948A.604
    
     [GRAPHIC] [TIFF OMITTED] T5948A.605
    
     [GRAPHIC] [TIFF OMITTED] T5948A.606
    
     [GRAPHIC] [TIFF OMITTED] T5948A.607
    
     [GRAPHIC] [TIFF OMITTED] T5948A.608
    
     [GRAPHIC] [TIFF OMITTED] T5948A.609
    
     [GRAPHIC] [TIFF OMITTED] T5948A.610
    
     [GRAPHIC] [TIFF OMITTED] T5948A.611
    
     [GRAPHIC] [TIFF OMITTED] T5948A.612
    
     [GRAPHIC] [TIFF OMITTED] T5948A.613
    
     [GRAPHIC] [TIFF OMITTED] T5948A.614
    
     [GRAPHIC] [TIFF OMITTED] T5948A.615
    
     [GRAPHIC] [TIFF OMITTED] T5948A.616
    
     [GRAPHIC] [TIFF OMITTED] T5948A.617
    
     [GRAPHIC] [TIFF OMITTED] T5948A.618
    
     [GRAPHIC] [TIFF OMITTED] T5948A.619
    
     [GRAPHIC] [TIFF OMITTED] T5948A.620
    
     [GRAPHIC] [TIFF OMITTED] T5948A.621
    
     [GRAPHIC] [TIFF OMITTED] T5948A.622
    
     [GRAPHIC] [TIFF OMITTED] T5948A.623
    
     [GRAPHIC] [TIFF OMITTED] T5948A.624
    
     [GRAPHIC] [TIFF OMITTED] T5948A.625
    
     [GRAPHIC] [TIFF OMITTED] T5948A.626
    
     [GRAPHIC] [TIFF OMITTED] T5948A.627
    
     [GRAPHIC] [TIFF OMITTED] T5948A.628
    
     [GRAPHIC] [TIFF OMITTED] T5948A.629
    
     [GRAPHIC] [TIFF OMITTED] T5948A.630
    
     [GRAPHIC] [TIFF OMITTED] T5948A.631
    
     [GRAPHIC] [TIFF OMITTED] T5948A.632
    
     [GRAPHIC] [TIFF OMITTED] T5948A.633
    
     [GRAPHIC] [TIFF OMITTED] T5948A.634
    
     [GRAPHIC] [TIFF OMITTED] T5948A.635
    
     [GRAPHIC] [TIFF OMITTED] T5948A.636
    
     [GRAPHIC] [TIFF OMITTED] T5948A.637
    
     [GRAPHIC] [TIFF OMITTED] T5948A.638
    
     [GRAPHIC] [TIFF OMITTED] T5948A.639
    
     [GRAPHIC] [TIFF OMITTED] T5948A.640
    
     [GRAPHIC] [TIFF OMITTED] T5948A.641
    
     [GRAPHIC] [TIFF OMITTED] T5948A.642
    
     [GRAPHIC] [TIFF OMITTED] T5948A.643
    
     [GRAPHIC] [TIFF OMITTED] T5948A.644
    
     [GRAPHIC] [TIFF OMITTED] T5948A.645
    
     [GRAPHIC] [TIFF OMITTED] T5948A.646
    
     [GRAPHIC] [TIFF OMITTED] T5948A.647
    
     [GRAPHIC] [TIFF OMITTED] T5948A.648
    
     [GRAPHIC] [TIFF OMITTED] T5948A.649
    
     [GRAPHIC] [TIFF OMITTED] T5948A.650
    
     [GRAPHIC] [TIFF OMITTED] T5948A.651
    
     [GRAPHIC] [TIFF OMITTED] T5948A.652
    
     [GRAPHIC] [TIFF OMITTED] T5948A.653
    
     [GRAPHIC] [TIFF OMITTED] T5948A.654
    
     [GRAPHIC] [TIFF OMITTED] T5948A.655
    
     [GRAPHIC] [TIFF OMITTED] T5948A.656
    
     [GRAPHIC] [TIFF OMITTED] T5948A.657
    
     [GRAPHIC] [TIFF OMITTED] T5948A.658
    
     [GRAPHIC] [TIFF OMITTED] T5948A.659
    
     [GRAPHIC] [TIFF OMITTED] T5948A.660
    
     [GRAPHIC] [TIFF OMITTED] T5948A.661
    
     [GRAPHIC] [TIFF OMITTED] T5948A.662
    
     [GRAPHIC] [TIFF OMITTED] T5948A.663
    
     [GRAPHIC] [TIFF OMITTED] T5948A.664
    
     [GRAPHIC] [TIFF OMITTED] T5948A.665
    
     [GRAPHIC] [TIFF OMITTED] T5948A.666
    
     [GRAPHIC] [TIFF OMITTED] T5948A.667
    
     [GRAPHIC] [TIFF OMITTED] T5948A.668
    
     [GRAPHIC] [TIFF OMITTED] T5948A.669
    
     [GRAPHIC] [TIFF OMITTED] T5948A.670
    
     [GRAPHIC] [TIFF OMITTED] T5948A.671
    
     [GRAPHIC] [TIFF OMITTED] T5948A.672
    
     [GRAPHIC] [TIFF OMITTED] T5948A.673
    
     [GRAPHIC] [TIFF OMITTED] T5948A.674
    
     [GRAPHIC] [TIFF OMITTED] T5948A.675
    
     [GRAPHIC] [TIFF OMITTED] T5948A.676
    
     [GRAPHIC] [TIFF OMITTED] T5948A.677
    
     [GRAPHIC] [TIFF OMITTED] T5948A.678
    
     [GRAPHIC] [TIFF OMITTED] T5948A.679
    
     [GRAPHIC] [TIFF OMITTED] T5948A.680
    
     [GRAPHIC] [TIFF OMITTED] T5948A.681
    
     [GRAPHIC] [TIFF OMITTED] T5948A.682
    
     [GRAPHIC] [TIFF OMITTED] T5948A.683
    
     [GRAPHIC] [TIFF OMITTED] T5948A.684
    
     [GRAPHIC] [TIFF OMITTED] T5948A.685
    
     [GRAPHIC] [TIFF OMITTED] T5948A.686
    
     [GRAPHIC] [TIFF OMITTED] T5948A.687
    
     [GRAPHIC] [TIFF OMITTED] T5948A.688
    
     [GRAPHIC] [TIFF OMITTED] T5948A.689
    
     [GRAPHIC] [TIFF OMITTED] T5948A.690
    
     [GRAPHIC] [TIFF OMITTED] T5948A.691
    
     [GRAPHIC] [TIFF OMITTED] T5948A.692
    
     [GRAPHIC] [TIFF OMITTED] T5948A.693
    
     [GRAPHIC] [TIFF OMITTED] T5948A.694
    
     [GRAPHIC] [TIFF OMITTED] T5948A.695
    
     [GRAPHIC] [TIFF OMITTED] T5948A.696
    
     [GRAPHIC] [TIFF OMITTED] T5948A.697
    
     [GRAPHIC] [TIFF OMITTED] T5948A.698
    
     [GRAPHIC] [TIFF OMITTED] T5948A.699
    
     [GRAPHIC] [TIFF OMITTED] T5948A.700
    
     [GRAPHIC] [TIFF OMITTED] T5948A.701
    
     [GRAPHIC] [TIFF OMITTED] T5948A.702
    
     [GRAPHIC] [TIFF OMITTED] T5948A.703
    
     [GRAPHIC] [TIFF OMITTED] T5948A.704
    
     [GRAPHIC] [TIFF OMITTED] T5948A.705
    
     [GRAPHIC] [TIFF OMITTED] T5948A.706
    
     [GRAPHIC] [TIFF OMITTED] T5948A.707
    
     [GRAPHIC] [TIFF OMITTED] T5948A.708
    
     [GRAPHIC] [TIFF OMITTED] T5948A.709
    
     [GRAPHIC] [TIFF OMITTED] T5948A.710
    
     [GRAPHIC] [TIFF OMITTED] T5948A.711
    
     [GRAPHIC] [TIFF OMITTED] T5948A.712
    
     [GRAPHIC] [TIFF OMITTED] T5948A.713
    
     [GRAPHIC] [TIFF OMITTED] T5948A.714
    
     [GRAPHIC] [TIFF OMITTED] T5948A.715
    
     [GRAPHIC] [TIFF OMITTED] T5948A.716
    
     [GRAPHIC] [TIFF OMITTED] T5948A.717
    
     [GRAPHIC] [TIFF OMITTED] T5948A.718
    
     [GRAPHIC] [TIFF OMITTED] T5948A.719
    
     [GRAPHIC] [TIFF OMITTED] T5948A.720
    
     [GRAPHIC] [TIFF OMITTED] T5948A.721
    
     [GRAPHIC] [TIFF OMITTED] T5948A.722
    
     [GRAPHIC] [TIFF OMITTED] T5948A.723
    
     [GRAPHIC] [TIFF OMITTED] T5948A.724
    
     [GRAPHIC] [TIFF OMITTED] T5948A.725
    
     [GRAPHIC] [TIFF OMITTED] T5948A.726
    
     [GRAPHIC] [TIFF OMITTED] T5948A.727
    
     [GRAPHIC] [TIFF OMITTED] T5948A.728
    
     [GRAPHIC] [TIFF OMITTED] T5948A.729
    
     [GRAPHIC] [TIFF OMITTED] T5948A.730
    
     [GRAPHIC] [TIFF OMITTED] T5948A.731
    
     [GRAPHIC] [TIFF OMITTED] T5948A.732
    
     [GRAPHIC] [TIFF OMITTED] T5948A.733
    
     [GRAPHIC] [TIFF OMITTED] T5948A.734
    
     [GRAPHIC] [TIFF OMITTED] T5948A.735
    
     [GRAPHIC] [TIFF OMITTED] T5948A.736
    
     [GRAPHIC] [TIFF OMITTED] T5948A.737
    
     [GRAPHIC] [TIFF OMITTED] T5948A.738
    
     [GRAPHIC] [TIFF OMITTED] T5948A.739
    
     [GRAPHIC] [TIFF OMITTED] T5948A.740
    
     [GRAPHIC] [TIFF OMITTED] T5948A.741
    
     [GRAPHIC] [TIFF OMITTED] T5948A.742
    
     [GRAPHIC] [TIFF OMITTED] T5948A.743
    
     [GRAPHIC] [TIFF OMITTED] T5948A.744
    
     [GRAPHIC] [TIFF OMITTED] T5948A.745
    
     [GRAPHIC] [TIFF OMITTED] T5948A.746
    
     [GRAPHIC] [TIFF OMITTED] T5948A.747
    
     [GRAPHIC] [TIFF OMITTED] T5948A.748
    
     [GRAPHIC] [TIFF OMITTED] T5948A.749
    
     [GRAPHIC] [TIFF OMITTED] T5948A.750
    
     [GRAPHIC] [TIFF OMITTED] T5948A.751
    
     [GRAPHIC] [TIFF OMITTED] T5948A.752
    
     [GRAPHIC] [TIFF OMITTED] T5948A.753
    
     [GRAPHIC] [TIFF OMITTED] T5948A.754
    
     [GRAPHIC] [TIFF OMITTED] T5948A.755
    
     [GRAPHIC] [TIFF OMITTED] T5948A.756
    
     [GRAPHIC] [TIFF OMITTED] T5948A.757
    
     [GRAPHIC] [TIFF OMITTED] T5948A.758
    
     [GRAPHIC] [TIFF OMITTED] T5948A.759
    
     [GRAPHIC] [TIFF OMITTED] T5948A.760
    
     [GRAPHIC] [TIFF OMITTED] T5948A.761
    
     [GRAPHIC] [TIFF OMITTED] T5948A.762
    
     [GRAPHIC] [TIFF OMITTED] T5948A.763
    
     [GRAPHIC] [TIFF OMITTED] T5948A.764
    
     [GRAPHIC] [TIFF OMITTED] T5948A.765
    
     [GRAPHIC] [TIFF OMITTED] T5948A.766
    
     [GRAPHIC] [TIFF OMITTED] T5948A.767
    
     [GRAPHIC] [TIFF OMITTED] T5948A.768
    
     [GRAPHIC] [TIFF OMITTED] T5948A.769
    
     [GRAPHIC] [TIFF OMITTED] T5948A.770
    
     [GRAPHIC] [TIFF OMITTED] T5948A.771
    
     [GRAPHIC] [TIFF OMITTED] T5948A.772
    
     [GRAPHIC] [TIFF OMITTED] T5948A.773
    
     [GRAPHIC] [TIFF OMITTED] T5948A.774
    
     [GRAPHIC] [TIFF OMITTED] T5948A.775
    
     [GRAPHIC] [TIFF OMITTED] T5948A.776
    
     [GRAPHIC] [TIFF OMITTED] T5948A.777
    
     [GRAPHIC] [TIFF OMITTED] T5948A.778
    
     [GRAPHIC] [TIFF OMITTED] T5948A.779
    
     [GRAPHIC] [TIFF OMITTED] T5948A.780
    
     [GRAPHIC] [TIFF OMITTED] T5948A.781
    
     [GRAPHIC] [TIFF OMITTED] T5948A.782
    
     [GRAPHIC] [TIFF OMITTED] T5948A.783
    
     [GRAPHIC] [TIFF OMITTED] T5948A.784
    
     [GRAPHIC] [TIFF OMITTED] T5948A.785
    
     [GRAPHIC] [TIFF OMITTED] T5948A.786
    
     [GRAPHIC] [TIFF OMITTED] T5948A.787
    
     [GRAPHIC] [TIFF OMITTED] T5948A.788
    
     [GRAPHIC] [TIFF OMITTED] T5948A.789
    
     [GRAPHIC] [TIFF OMITTED] T5948A.790
    
     [GRAPHIC] [TIFF OMITTED] T5948A.791
    
     [GRAPHIC] [TIFF OMITTED] T5948A.792
    
     [GRAPHIC] [TIFF OMITTED] T5948A.793
    
     [GRAPHIC] [TIFF OMITTED] T5948A.794
    
     [GRAPHIC] [TIFF OMITTED] T5948A.795
    
     [GRAPHIC] [TIFF OMITTED] T5948A.796
    
     [GRAPHIC] [TIFF OMITTED] T5948A.797
    
     [GRAPHIC] [TIFF OMITTED] T5948A.798
    
     [GRAPHIC] [TIFF OMITTED] T5948A.799
    
     [GRAPHIC] [TIFF OMITTED] T5948A.800
    
     [GRAPHIC] [TIFF OMITTED] T5948A.801
    
     [GRAPHIC] [TIFF OMITTED] T5948A.802
    
     [GRAPHIC] [TIFF OMITTED] T5948A.803
    
     [GRAPHIC] [TIFF OMITTED] T5948A.804
    
     [GRAPHIC] [TIFF OMITTED] T5948A.805
    
     [GRAPHIC] [TIFF OMITTED] T5948A.806
    
     [GRAPHIC] [TIFF OMITTED] T5948A.807
    
     [GRAPHIC] [TIFF OMITTED] T5948A.808
    
     [GRAPHIC] [TIFF OMITTED] T5948A.809
    
     [GRAPHIC] [TIFF OMITTED] T5948A.810
    
     [GRAPHIC] [TIFF OMITTED] T5948A.811
    
     [GRAPHIC] [TIFF OMITTED] T5948A.812
    
     [GRAPHIC] [TIFF OMITTED] T5948A.813
    
     [GRAPHIC] [TIFF OMITTED] T5948A.814
    
     [GRAPHIC] [TIFF OMITTED] T5948A.815
    
     [GRAPHIC] [TIFF OMITTED] T5948A.816
    
     [GRAPHIC] [TIFF OMITTED] T5948A.817
    
     [GRAPHIC] [TIFF OMITTED] T5948A.818
    
     [GRAPHIC] [TIFF OMITTED] T5948A.819
    
     [GRAPHIC] [TIFF OMITTED] T5948A.820
    
     [GRAPHIC] [TIFF OMITTED] T5948A.821
    
     [GRAPHIC] [TIFF OMITTED] T5948A.822
    
     [GRAPHIC] [TIFF OMITTED] T5948A.823
    
     [GRAPHIC] [TIFF OMITTED] T5948A.824
    
     [GRAPHIC] [TIFF OMITTED] T5948A.825
    
     [GRAPHIC] [TIFF OMITTED] T5948A.826
    
     [GRAPHIC] [TIFF OMITTED] T5948A.827
    
     [GRAPHIC] [TIFF OMITTED] T5948A.828
    
     [GRAPHIC] [TIFF OMITTED] T5948A.829
    
     [GRAPHIC] [TIFF OMITTED] T5948A.830
    
     [GRAPHIC] [TIFF OMITTED] T5948A.831
    
     [GRAPHIC] [TIFF OMITTED] T5948A.832
    
     [GRAPHIC] [TIFF OMITTED] T5948A.833
    
     [GRAPHIC] [TIFF OMITTED] T5948A.834
    
     [GRAPHIC] [TIFF OMITTED] T5948A.835
    
     [GRAPHIC] [TIFF OMITTED] T5948A.836
    
     [GRAPHIC] [TIFF OMITTED] T5948A.837
    
     [GRAPHIC] [TIFF OMITTED] T5948A.838
    
     [GRAPHIC] [TIFF OMITTED] T5948A.839
    
     [GRAPHIC] [TIFF OMITTED] T5948A.840
    
     [GRAPHIC] [TIFF OMITTED] T5948A.841
    
     [GRAPHIC] [TIFF OMITTED] T5948A.842
    
     [GRAPHIC] [TIFF OMITTED] T5948A.843
    
     [GRAPHIC] [TIFF OMITTED] T5948A.844
    
    [GRAPHIC] [TIFF OMITTED] T5948A.845
    
    [GRAPHIC] [TIFF OMITTED] T5948A.846
    
    [GRAPHIC] [TIFF OMITTED] T5948A.847
    
     [GRAPHIC] [TIFF OMITTED] T5948A.848
    
     [GRAPHIC] [TIFF OMITTED] T5948A.849
    
     [GRAPHIC] [TIFF OMITTED] T5948A.850
    
     [GRAPHIC] [TIFF OMITTED] T5948A.851
    
     [GRAPHIC] [TIFF OMITTED] T5948A.852
    
     [GRAPHIC] [TIFF OMITTED] T5948A.853
    
     [GRAPHIC] [TIFF OMITTED] T5948A.854
    
     [GRAPHIC] [TIFF OMITTED] T5948A.855
    
     [GRAPHIC] [TIFF OMITTED] T5948A.856
    
     [GRAPHIC] [TIFF OMITTED] T5948A.857
    
     [GRAPHIC] [TIFF OMITTED] T5948A.858
    
     [GRAPHIC] [TIFF OMITTED] T5948A.859
    
     [GRAPHIC] [TIFF OMITTED] T5948A.860
    
     [GRAPHIC] [TIFF OMITTED] T5948A.861
    
     [GRAPHIC] [TIFF OMITTED] T5948A.862
    
     [GRAPHIC] [TIFF OMITTED] T5948A.863
    
     [GRAPHIC] [TIFF OMITTED] T5948A.864
    
     [GRAPHIC] [TIFF OMITTED] T5948A.865
    
     [GRAPHIC] [TIFF OMITTED] T5948A.866
    
     [GRAPHIC] [TIFF OMITTED] T5948A.867
    
     [GRAPHIC] [TIFF OMITTED] T5948A.868
    
     [GRAPHIC] [TIFF OMITTED] T5948A.869
    
     [GRAPHIC] [TIFF OMITTED] T5948A.870
    
     [GRAPHIC] [TIFF OMITTED] T5948A.871
    
     [GRAPHIC] [TIFF OMITTED] T5948A.872
    
     [GRAPHIC] [TIFF OMITTED] T5948A.873
    
     [GRAPHIC] [TIFF OMITTED] T5948A.874
    
     [GRAPHIC] [TIFF OMITTED] T5948A.875
    
     [GRAPHIC] [TIFF OMITTED] T5948A.876
    
     [GRAPHIC] [TIFF OMITTED] T5948A.877
    
     [GRAPHIC] [TIFF OMITTED] T5948A.878
    
     [GRAPHIC] [TIFF OMITTED] T5948A.879
    
     [GRAPHIC] [TIFF OMITTED] T5948A.880
    
     [GRAPHIC] [TIFF OMITTED] T5948A.881
    
     [GRAPHIC] [TIFF OMITTED] T5948A.882
    
     [GRAPHIC] [TIFF OMITTED] T5948A.883
    
     [GRAPHIC] [TIFF OMITTED] T5948A.884
    
     [GRAPHIC] [TIFF OMITTED] T5948A.885
    
     [GRAPHIC] [TIFF OMITTED] T5948A.886
    
     [GRAPHIC] [TIFF OMITTED] T5948A.887
    
     [GRAPHIC] [TIFF OMITTED] T5948A.888
    
     [GRAPHIC] [TIFF OMITTED] T5948A.889
    
     [GRAPHIC] [TIFF OMITTED] T5948A.890
    
     [GRAPHIC] [TIFF OMITTED] T5948A.891
    
     [GRAPHIC] [TIFF OMITTED] T5948A.892
    
     [GRAPHIC] [TIFF OMITTED] T5948A.893
    
     [GRAPHIC] [TIFF OMITTED] T5948A.894
    
     [GRAPHIC] [TIFF OMITTED] T5948A.895
    
     [GRAPHIC] [TIFF OMITTED] T5948A.896
    
     [GRAPHIC] [TIFF OMITTED] T5948A.897
    
     [GRAPHIC] [TIFF OMITTED] T5948A.898
    
     [GRAPHIC] [TIFF OMITTED] T5948A.899
    
     [GRAPHIC] [TIFF OMITTED] T5948A.900
    
     [GRAPHIC] [TIFF OMITTED] T5948A.901
    
     [GRAPHIC] [TIFF OMITTED] T5948A.902
    
     [GRAPHIC] [TIFF OMITTED] T5948A.903
    
     [GRAPHIC] [TIFF OMITTED] T5948A.904
    
     [GRAPHIC] [TIFF OMITTED] T5948A.905
    
     [GRAPHIC] [TIFF OMITTED] T5948A.906
    
     [GRAPHIC] [TIFF OMITTED] T5948A.907
    
     [GRAPHIC] [TIFF OMITTED] T5948A.908
    
     [GRAPHIC] [TIFF OMITTED] T5948A.909
    
     [GRAPHIC] [TIFF OMITTED] T5948A.910
    
     [GRAPHIC] [TIFF OMITTED] T5948A.911
    
     [GRAPHIC] [TIFF OMITTED] T5948A.912
    
     [GRAPHIC] [TIFF OMITTED] T5948A.913
    
     [GRAPHIC] [TIFF OMITTED] T5948A.914
    
     [GRAPHIC] [TIFF OMITTED] T5948A.915
    
     [GRAPHIC] [TIFF OMITTED] T5948A.916
    
     [GRAPHIC] [TIFF OMITTED] T5948A.917
    
     [GRAPHIC] [TIFF OMITTED] T5948A.918
    
     [GRAPHIC] [TIFF OMITTED] T5948A.919
    
     [GRAPHIC] [TIFF OMITTED] T5948A.920
    
     [GRAPHIC] [TIFF OMITTED] T5948A.921
    
     [GRAPHIC] [TIFF OMITTED] T5948A.922
    
     [GRAPHIC] [TIFF OMITTED] T5948A.923
    
     [GRAPHIC] [TIFF OMITTED] T5948A.924
    
     [GRAPHIC] [TIFF OMITTED] T5948A.925
    
     [GRAPHIC] [TIFF OMITTED] T5948A.926
    
     [GRAPHIC] [TIFF OMITTED] T5948A.927
    
     [GRAPHIC] [TIFF OMITTED] T5948A.928
    
     [GRAPHIC] [TIFF OMITTED] T5948A.929
    
     [GRAPHIC] [TIFF OMITTED] T5948A.930
    
     [GRAPHIC] [TIFF OMITTED] T5948A.931
    
     [GRAPHIC] [TIFF OMITTED] T5948A.932
    
     [GRAPHIC] [TIFF OMITTED] T5948A.933
    
     [GRAPHIC] [TIFF OMITTED] T5948A.934
    
     [GRAPHIC] [TIFF OMITTED] T5948A.935
    
     [GRAPHIC] [TIFF OMITTED] T5948A.936
    
     [GRAPHIC] [TIFF OMITTED] T5948A.937
    
     [GRAPHIC] [TIFF OMITTED] T5948A.938
    
     [GRAPHIC] [TIFF OMITTED] T5948A.939
    
     [GRAPHIC] [TIFF OMITTED] T5948A.940
    
     [GRAPHIC] [TIFF OMITTED] T5948A.941
    
     [GRAPHIC] [TIFF OMITTED] T5948A.942
    
     [GRAPHIC] [TIFF OMITTED] T5948A.943
    
     [GRAPHIC] [TIFF OMITTED] T5948A.944
    
     [GRAPHIC] [TIFF OMITTED] T5948A.945
    
     [GRAPHIC] [TIFF OMITTED] T5948A.946
    
     [GRAPHIC] [TIFF OMITTED] T5948A.947
    
     [GRAPHIC] [TIFF OMITTED] T5948A.948
    
     [GRAPHIC] [TIFF OMITTED] T5948A.949
    
     [GRAPHIC] [TIFF OMITTED] T5948A.950
    
     [GRAPHIC] [TIFF OMITTED] T5948A.951
    
     [GRAPHIC] [TIFF OMITTED] T5948A.952
    
     [GRAPHIC] [TIFF OMITTED] T5948A.953
    
     [GRAPHIC] [TIFF OMITTED] T5948A.954
    
     [GRAPHIC] [TIFF OMITTED] T5948A.955
    
     [GRAPHIC] [TIFF OMITTED] T5948A.956
    
     [GRAPHIC] [TIFF OMITTED] T5948A.957
    
     [GRAPHIC] [TIFF OMITTED] T5948A.958
    
     [GRAPHIC] [TIFF OMITTED] T5948A.959
    
     [GRAPHIC] [TIFF OMITTED] T5948A.960
    
    [GRAPHIC] [TIFF OMITTED] T5948A.961
    
    [GRAPHIC] [TIFF OMITTED] T5948A.962
    
    [GRAPHIC] [TIFF OMITTED] T5948A.963
    
    [GRAPHIC] [TIFF OMITTED] T5948A.964
    
    [GRAPHIC] [TIFF OMITTED] T5948A.965
    
    [GRAPHIC] [TIFF OMITTED] T5948A.966
    
    [GRAPHIC] [TIFF OMITTED] T5948A.967
    
    [GRAPHIC] [TIFF OMITTED] T5948A.968
    
    [GRAPHIC] [TIFF OMITTED] T5948A.969
    
    [GRAPHIC] [TIFF OMITTED] T5948A.970
    
    [GRAPHIC] [TIFF OMITTED] T5948A.971
    
    [GRAPHIC] [TIFF OMITTED] T5948A.972
    
    [GRAPHIC] [TIFF OMITTED] T5948A.973
    
    [GRAPHIC] [TIFF OMITTED] T5948A.974
    
    [GRAPHIC] [TIFF OMITTED] T5948A.975
    
    [GRAPHIC] [TIFF OMITTED] T5948A.976
    
    [GRAPHIC] [TIFF OMITTED] T5948A.977
    
    [GRAPHIC] [TIFF OMITTED] T5948A.978
    
    [GRAPHIC] [TIFF OMITTED] T5948A.979
    
    [GRAPHIC] [TIFF OMITTED] T5948A.980
    
    [GRAPHIC] [TIFF OMITTED] T5948A.981
    
    [GRAPHIC] [TIFF OMITTED] T5948A.982
    
    [GRAPHIC] [TIFF OMITTED] T5948A.983
    
    [GRAPHIC] [TIFF OMITTED] T5948A.984
    
    [GRAPHIC] [TIFF OMITTED] T5948A.985
    
    [GRAPHIC] [TIFF OMITTED] T5948A.986
    
    [GRAPHIC] [TIFF OMITTED] T5948A.987
    
    [GRAPHIC] [TIFF OMITTED] T5948A.988
    
    [GRAPHIC] [TIFF OMITTED] T5948A.989
    
    [GRAPHIC] [TIFF OMITTED] T5948A.990
    
    [GRAPHIC] [TIFF OMITTED] T5948A.991
    
    [GRAPHIC] [TIFF OMITTED] T5948A.992
    
    [GRAPHIC] [TIFF OMITTED] T5948A.993
    
    [GRAPHIC] [TIFF OMITTED] T5948A.994
    
    [GRAPHIC] [TIFF OMITTED] T5948A.995
    
    [GRAPHIC] [TIFF OMITTED] T5948A.996
    
    [GRAPHIC] [TIFF OMITTED] T5948A.997
    
    [GRAPHIC] [TIFF OMITTED] T5948A.998
    
    [GRAPHIC] [TIFF OMITTED] T5948A.999
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.000
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.001
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.002
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.003
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.004
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.005
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.006
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.007
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.008
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.009
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.010
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.011
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.012
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.013
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.014
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.015
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.016
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.017
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.018
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.019
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.020
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.021
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.022
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.023
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.024
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.025
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.026
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.027
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.028
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.029
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.030
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.031
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.032
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.033
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.034
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.035
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.036
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.037
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.038
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.039
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.040
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.041
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.042
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.043
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.044
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.045
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.046
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.047
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.048
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.049
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.050
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.051
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.052
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.053
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.054
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.055
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.056
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.057
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.058
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.059
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.060
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.061
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.062
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.063
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.064
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.065
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.066
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.067
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.068
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.069
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.070
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.071
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.072
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.073
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.074
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.075
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.076
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.077
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.078
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.079
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.080
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.081
    
    [GRAPHIC] [TIFF OMITTED] T5948A1.082
    
</pre></body></html>
